<html>
<title> - COMBATING TRANSNATIONAL GANGS THROUGH INFORMATION SHARING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
       COMBATING TRANSNATIONAL GANGS THROUGH INFORMATION SHARING

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 18, 2018

                               __________

                           Serial No. 115-45

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-191 PDF                 WASHINGTON : 2018                                    
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Lou Barletta, Pennsylvania           Kathleen M. Rice, New York
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Will Hurd, Texas                     William R. Keating, Massachusetts
Mike Gallagher, Wisconsin            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
            Nicole Tisdale, Minority Staff Director/Counsel
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania..........................................     1
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................    11
  Prepared Statement.............................................     2
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Stephen E. Richardson, Assistant Director, Criminal 
  Investigation Division, Federal Bureau of Investigation:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Raymond Villanueva, Assistant Director in Charge, 
  International Operations, U.S. Immigration and Customs 
  Enforcement:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Richard H. Glenn, Acting Deputy Assistant Secretary, Bureau 
  of International Narcotic, U.S. Department of State:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                                Appendix

Questions From Ranking Member Bennie G. Thompson for Stephen E. 
  Richardson.....................................................    35
Questions From Ranking Member Bennie G. Thompson for Raymond 
  Villanueva.....................................................    35
Questions From Ranking Member Bennie G. Thompson for Richard 
  Glenn..........................................................    36


       COMBATING TRANSNATIONAL GANGS THROUGH INFORMATION SHARING

                              ----------                              


                       Thursday, January 18, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:17 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Scott Perry [Member 
of the subcommittee] presiding.
    Present: Representatives King, Perry, Rice, and Keating.
    Also present: Representative McCaul.
    Mr. Perry [presiding]. Good morning. The Committee on 
Homeland Security Subcommittee on Counterterrorism and 
Intelligence will come to order. The subcommittee is meeting 
today to hear testimony from the FBI, the Department of 
Homeland Security, and the Department of State on Federal 
coordination and information sharing vital to dismantling 
transnational criminal organizations.
    I would like to welcome the Members of the subcommittee and 
express my appreciation to the witnesses for being here today.
    The Chair now recognizes himself for an opening statement, 
after which I will deliver Mr. King's opening statement.
    Law enforcement officers use many weapons to fight 
terrorism and crime in our streets. Some of these weapons, such 
as badges, guns, and squad cars are easy to see. They are the 
hallmarks of police work.
    There are other weapons, however, that are harder to 
identify but every bit as vital. Among these less visible 
weapons the access to timely and accurate information is 
oftentimes the difference between a successful investigation 
and an unsolved crime.
    In today's threat environment, much of the information 
needed by law enforcement in the United States is generated 
overseas. This is particularly true when it comes to combating 
complex transnational criminal organizations that threaten our 
safety here at home.
    These sophisticated criminal enterprises do not stop at 
borders. Instead, they extend beyond the limits imposed by 
nation-states and threaten the peace and stability of multiple 
countries.
    The only way to defeat syndicates that operate across 
international borders is through partnerships with foreign 
counterparts. It is incumbent on U.S. law enforcement agencies 
to work with our overseas allies to ensure that coordinated 
enforcement efforts are brought to bear against the menace that 
MS-13 and other TCOs pose to our Nation.
    In addition to information sharing, another essential step 
in fighting--in addition to information sharing, another 
essential step in the fight against TCOs is to develop the 
capacity of our foreign partners to defeat these networks 
before they become a threat to the United States.
    Today's hearing will feature testimony from representatives 
of Federal agencies tasked with combating the spread of TCOs. 
These entities bring various tools and capabilities to the 
fight, including investigating and prosecuting TCOs, as well as 
working with our foreign counterparts to strengthen and support 
their efforts to disrupt and dismantle TCOs.
    These witnesses include executives from the Federal Bureau 
of Investigation from the Department of Justice and Homeland 
Security Investigations from the Department of Homeland 
Security and the Bureau of International Narcotics and Law 
Enforcement Affairs from the Department of State. All of these 
agencies participate in protecting the U.S. homeland by working 
to defeat TCOs overseas.
    Each of these agencies is responsible for collecting, 
vetting, and disseminating TCO-related information. Sharing 
this overseas information with State and local domestic law 
enforcement agencies enhances the ability of our men and women 
in blue to keep this country safe at home from the threat posed 
by TCOs.
    I look forward to hearing from our witnesses. Their 
understanding and vast experiences will provide the committee 
with a comprehensive overview of how the cycle of international 
information-sharing functions.
    This overview will, in turn, afford the committee an 
opportunity to identify enhancements that can be made to better 
equip U.S. law enforcement at all levels to share information 
in their efforts to disrupt and dismantle TCOs, both home and 
abroad.
    [The prepared statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                            January 18, 2018
    Law enforcement officers use many weapons to fight terrorism and 
crime on our streets. Some of these weapons, such as badges, guns, and 
squad cars, are easy to see. They are the hallmarks of police work. 
There are other weapons, however, that are harder to identify but every 
bit as vital. Among these less visible weapons, access to timely and 
accurate information is oftentimes the difference between a successful 
investigation and an unsolved crime.
    In today's threat environment, much of the information needed by 
law enforcement in the United States is generated overseas. This is 
particularly true when it comes to combating complex Transnational 
Criminal Organizations that threaten our safety at home. These 
sophisticated criminal enterprises do not stop at borders. Instead, 
they extend beyond the limits imposed by nation-states and threaten the 
peace and stability of multiple countries. The only way to defeat 
syndicates that operate across international borders is through 
partnerships with foreign counterparts.
    This issue is of particular concern to the people of Long Island. 
Specifically, the violent street gang MS-13, which has been designated 
as a TCO, has inflicted much death and destruction in Nassau and 
Suffolk Counties. The horrendous criminal actions of MS-13 
disproportionately affect the youth of immigrant communities on Long 
Island. In the last 14 months, the murders of 17 people in Suffolk 
County alone have been linked to MS-13 violence. It is incumbent on 
U.S. law enforcement agencies to work with our overseas allies to 
ensure that coordinated enforcement efforts are brought to bear against 
the menace that MS-13 and other TCOs pose to our Nation. In addition to 
information sharing, another essential step in the fight against TCOs 
is to develop the capacity of our foreign partners to defeat these 
networks before they become a threat to the United States.
    Today's hearing will feature testimony from representatives of 
Federal agencies tasked with combating the spread of TCOs. These 
entities bring various tools and capabilities to the fight, including 
investigating and prosecuting TCOs as well as working with our foreign 
counterparts to strengthen and support their efforts to disrupt and 
dismantle TCOs. These witnesses include executives from the Federal 
Bureau of Investigation from the Department of Justice, Homeland 
Security Investigations from the Department of Homeland Security, and 
the Bureau of International Narcotics and Law Enforcement Affairs from 
the Department of State. All of these agencies participate in 
protecting the U.S. homeland by working to defeat TCOs overseas.
    Each of these agencies is responsible for collecting, vetting, and 
disseminating TCO-related information. Sharing this overseas 
information with State and local domestic law enforcement agencies 
enhances the ability of our men and women in blue to keep this country 
safe at home from the threat posed by TCOs.
    I look forward to hearing from our witnesses. Their understanding 
and vast experiences will provide the committee with a comprehensive 
overview of how the cycle of international information-sharing 
functions. This overview will, in turn, afford the committee an 
opportunity to identify enhancements that can be made to better equip 
U.S. law enforcement at all levels to share information in their 
efforts to disrupt and dismantle TCOs both at home and abroad.

    Mr. Perry. I now recognize Ranking Member Rice for her 
opening statement.
    Miss Rice. Thank you, Chairman Perry for holding today's 
hearing and thank you to the witnesses for your testimony 
today.
    In June 2017 we held a similar hearing on how we can both 
combat transnational gang violence on Long Island while 
empowering young people with the knowledge, support, and 
resources that they need to reject gangs in our communities.
    As we find ourselves here to discuss a similar topic again, 
I hope that today's discussion will include a broad look at 
transnational criminal organizations around the world. As we 
all know, MS-13 and the 18th Street gang and rival gangs are 
criminal organizations who commit brutal acts of violence and 
have taken too many lives.
    They, like other transnational gangs, are organizations 
that revel in violence, create fear, and terrorize the 
communities in which they live and operate and recruit their 
members.
    As the formal Nassau County district attorney, I have seen 
first-hand how vicious and unrepentant these gangs are. I have 
seen MS-13 and 18th Street gang members laugh at the judge as 
they were sentenced to life in prison or they were deported.
    So I want the record to be clear. I believe all violent 
criminals should be punished to the full extent of the law. I 
believe that violent criminals who are in this country 
illegally should be deported and prevented from ever coming 
back. I believe that dismantling violent criminal organizations 
like MS-13 must be a priority for law enforcement officials and 
lawmakers at all levels.
    However, I also know for a fact that the vast majority of 
immigrants in this country are not criminals. They are usually 
the victims of crime rather than the perpetrators.
    I know and understand that you cannot destroy a gang like 
MS-13 without the help of immigrant communities. You need 
members of the community to talk to you, provide information, 
report crimes, and for that they need to trust you. They need 
to know that stepping forward to help will not lead to them 
being detained and deported and ripped away from their 
families.
    I will remind the committee and my Republican colleagues 
that many of the members of MS-13 are, in fact, immigrants and 
children and descendants of immigrants that have become victims 
of gang threats, violence, and recruitment.
    More, it is clear to me that President Trump, Attorney 
General Sessions, and Republicans in Congress have sought and 
continue to use the threat of MS-13 to justify their push to 
build a wall on the Southern Border and round up and deport 
millions of immigrants, including those whose only crime is 
being in this country without paperwork.
    Last week, President Trump and DHS Secretary Nielsen made 
another shameful anti-immigrant decision by ending temporary 
protected status for 31,000 Salvadoran TPS holders in new York, 
which will send families back to a country that is overrun with 
gang violence and drug trafficking.
    This decision came on the heels of the Trump 
administration's decision to end DACA and temporary protected 
status for Haitians and Nicaraguans. Republicans have made it 
clear that they are not concerned about the destabilizing 
effects that such U.S. policies will have on communities like 
the one that Peter King and I serve on Long Island.
    On average, TPS recipients in our State have lived in the 
United States for an average of 21 years. They are our 
neighbors, our friends, and our co-workers. Now, I recognize 
that this hearing is not about TPS, but I also recognize the 
Republican-controlled Congress does not want to negotiate so I 
have to use every platform to address this issue.
    I yield back.
    [The statement of Ranking Member Rice follows:]
               Statement of Ranking Member Kathleen Rice
                            January 18, 2018
    In June of 2017, we held a similar hearing on how we can both 
combat transnational gang violence on Long Island, while empowering 
young people with the knowledge, support, and resources they need to 
reject gangs in our communities.
    As we find ourselves here to discuss a similar topic again, I hope 
that today's discussion will include a broad look at transnational 
criminal organizations around the world.
    As we all know, MS-13, the 18th Street Gang, and rival gangs are 
criminal organizations who commit brutal acts of violence and have 
taken too many lives. They, like other transnational gangs are 
organizations that revel in violence, crave fear, and terrorize the 
communities in which they live and operate and recruit their members.
    As the former Nassau County District Attorney, I've seen first-hand 
how vicious and unrepentant these gangs are. I've seen MS-13 and 18th 
Street Gang members laugh at the judge as they were sentenced to life 
in prison or deported.
    So I want the record to be clear, I believe all violent criminals 
should be punished to the full extent of the law. I believe that 
violent criminals who are in this country illegally should be deported 
and prevented from ever coming back. I believe that dismantling violent 
criminal organizations like MS-13 must be a priority for law 
enforcement officials and lawmakers at all levels.
    However, I also know for a fact that the vast majority of 
immigrants in this country are not criminals--they are usually the 
victims of crime rather than the perpetrators.
    I know and understand that you cannot destroy a gang like MS-13 
without the help of immigrant communities. You need members of the 
community to talk to you, provide information, report crimes--and for 
that, they need to trust you.
    They need to know that stepping forward to help will not lead to 
them being detained and deported and ripped away from their families.
    I will remind the committee and my Republican colleagues that many 
of the members of MS-13 are, in fact, immigrants and children and 
descendants of immigrants that have become victims of gang threats, 
violence, recruitment.
    More, it is clear to me that President Trump, Attorney General 
Sessions, and Republicans in Congress have sought and continue to use 
the threat of MS-13 to justify their push to build a wall on the 
Southern Border and round up and deport millions of immigrants--
including those whose only crime is being in this country without 
paperwork.
    Last week, President Trump and DHS Secretary Nielsen, made another 
shameful, anti-immigrant decision by ending temporary protected status 
for 31,000 Salvadoran TPS holders in New York, which will send families 
back to a country that is overrun with gang violence and drug 
trafficking.
    This decision came on the heels of the Trump administration's 
decision to end DACA and temporary protected status for Haitians and 
Nicaraguans.
    Republicans have made it clear that they are not concerned about 
the destabilizing effects that such U.S. policies will have on 
communities like the ones Chairman King and I serve on Long Island.
    On average TPS recipients in our State have lived in the United 
States for an average of 21 years. They are our neighbors, our friends, 
and our coworkers.
    I recognize this hearing isn't about TPS, but I also recognize a 
Republican-controlled Congress doesn't want to negotiate, so I have to 
use every platform I have to address this issue.

    Mr. Perry. The Chair thanks the gentlelady.
    The Chair now thanks the Chairman of the full committee, 
the gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Chairman Perry.
    Transnational Criminal Organizations are a serious and 
growing threat to the American people. They disregard the rule 
of law of all nations and use their networks to smuggle drugs 
and traffic human beings for sexual exploitation and slave 
labor.
    They resort to brutal violence and intimidation tactics to 
carry out their illegal deeds. These networks of vile 
individuals and gangs like MS-13 have been known to kidnap, 
torture, and behead their victims. Top officials at DHS are 
very alarmed by their actions.
    Before becoming White House Chief of Staff, Secretary of 
Homeland Security John Kelly explained to a National security 
forum last July, to me personally, that one of his top concerns 
is a partnership between TCOs and international terror groups.
    If such alliances were formed, terrorists would have an 
easier time sneaking a dirty bomb or other catastrophic weapon 
and resources into the United States.
    Further, in written testimony before our full committee 
back in November, Acting Secretary Duke stated that TCOs are, 
``bringing drugs, violence, and dangerous goods across our 
borders and pose a persistent National security threat to the 
United States''.
    Unfortunately, some of these partnerships are starting to 
take hold. Recent reports have shown that Hezbollah has been 
very active in recent years with international drug cartels in 
Latin America. We cannot allow such dangerous actors to gather 
in our hemisphere unchallenged.
    The ability of TCOs secreting terrorists and WMD into our 
country is a grave threat. This committee is going to undertake 
a thorough review of these possibilities so that we can prevent 
them from happening. Sadly, these TCOs have an easy time 
infiltrating our communities because the security of our 
Southern Border is just not strong enough to stop them. 
Hopefully, we will soon be able to fix that.
    Legislation I introduced to strengthen border security with 
new infrastructure including a wall, more boots on the ground 
and new technology, was passed out of our full committee in 
October.
    Last week, that important legislation was incorporated into 
a larger bill to fix our broken immigration system. I am 
hopeful that we can pass it through the Congress and get it to 
the President's desk very soon.
    All three branches of Government working together is 
essential in this fight, but we must also create and foster 
partnerships with governments in Latin America to help 
eliminate these threats from TCOs.
    One of the most important lessons we learned from the 9/11 
attacks is that we must effectively communicate vital 
information among Federal departments and law enforcement 
agencies. Doing so will save many innocent lives.
    Today's witnesses represent the hardworking men and women 
from FBI, ICE, and State Department, who work very hard for the 
protection of their fellow Americans, and I would like to thank 
each of you individuals for being here today.
    Before I yield back I just want to say on a personal note 
before becoming a Member of Congress I was the chief of 
Counterterrorism and National Security in the Western District 
of Texas in the U.S. Attorney's Office. I had the Texas and 
Mexico border in my jurisdiction.
    I have been dealing with this issue for quite some time, 
seven terms in Congress and many years as a Federal prosecutor. 
This problem has not stopped. It has gotten worse. It has not 
gotten better.
    It is now more of a threat. I think it cries out for action 
from Congress and from the administration to finally, once and 
for all, get this job done.
    With that, Mr. Chairman, I yield back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                            January 18, 2018
    Transnational Criminal Organizations (TCOs) are a serious and 
growing threat to the American people. They disregard the rule of law 
of all nations and use their networks to smuggle drugs, and traffic 
human beings for sexual exploitation and slave labor.
    They resort to brutal violence and intimidation tactics to carry 
out their illegal deeds. These networks of vile individuals, and gangs 
like MS-13, have been known to kidnap, torture, and behead their 
victims. The top officials at DHS are very alarmed by their actions.
    Before becoming White House Chief of Staff, Secretary of Homeland 
Security John Kelly explained to a National security forum last July 
that one of his top concerns is a partnership between TCO's and 
international terror groups.
    If such alliances were formed, terrorists would have an easier time 
sneaking a dirty bomb or other catastrophic weapons and resources into 
the United States.
    Further, in written testimony before our full committee back in 
November, Acting Secretary Duke stated that TCO's are ``bringing drugs, 
violence, and dangerous goods across our borders . . . they pose a 
persistent National security threat to the United States.''
    Unfortunately, some of these partnerships are starting to take 
hold. Recent reports have shown that Hezbollah has been very active in 
recent years with international drug cartels in Latin America.
    We cannot allow such dangers to gather in our hemisphere 
unchallenged.
    The ability of TCO's secreting terrorists and WMD into our country 
is a grave threat. And this committee is going to undertake a thorough 
review of these possibilities so that we can prevent them from 
happening. Sadly, these TCO's have an easy time infiltrating our 
communities because the security of our Southern Border is just not 
strong enough to stop them. Hopefully, we will soon be able to fix 
that.
    Legislation I introduced to strengthen border security with new 
infrastructure including a wall, more boots on the ground, and new 
technology, was passed out of our full committee in October.
    Last week, that important legislation was incorporated into a 
larger bill to fix our broken immigration system.
    I am hoping we can pass it through Congress and get it to the 
President's desk very soon. All three branches of Government working 
together is essential in this fight, but we must also create and foster 
partnerships with governments in Latin America to help eliminate 
threats from TCO's.
    One of the most important lessons we learned from the 9/11 attacks 
is that we must effectively communicate vital information among Federal 
departments and law enforcement agencies. Doing so will save many 
innocent lives.
    Today's witnesses represent hardworking men and women from the FBI, 
ICE, and the State Department, who work very hard for the protection of 
their fellow Americans. I'd like to thank each of you for being here.

    Mr. Perry. The Chair thanks the gentleman. Other Members of 
the committee are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            January 18, 2018
    This hearing is focused on Federal information sharing related to 
combating transnational gangs and criminal organizations, but given the 
recent antics from the White House I cannot address this topic in a 
vacuum.
    President Trump began his campaign with an attack on immigrants and 
continues to use his administration to advance an agenda that is based 
on racial and ethnic bias.
    One of his first actions as President was a travel ban from 
majority Muslim countries.
    Last fall, Trump ended the Deferred Action Childhood Arrival 
program, upending the lives of many young immigrants, who have only 
known the United States as their home.
    On January 8, the Trump administration made a decision to cancel 
the Temporary Protected Status for people from El Salvador, mere months 
after the same decision was made regarding those that have sought 
shelter and compassion in the U.S. from Haiti and Nicaragua.
    This week, the Trump administration released a misleading report, 
which purports that foreign-born individuals commit terror at very high 
rates.
    The data in the report perpetuates a myth that all immigrants are a 
threat and a danger to our communities and country.
    The report is yet another propaganda tool by the Trump 
administration consisting of falsehoods and half-truths to support its 
narrow-minded policies.
    President Trump is becoming more and more comfortable openly 
stoking xenophobia to garner support for his misguided immigration and 
border security plans.
    Republicans in Congress seemingly agree with President Trump, as 
they are silent when his administration spews misinformation, turn a 
blind eye to his despicable decisions TPS and Dreamers, and refuse to 
denounce the vile remarks he has made about immigrants from Latin 
American, African, and Middle Eastern countries.
    Republican Members of Congress, some of whom serve on this 
committee, recently scrambled to justify a string of heartless actions 
by the Trump administration all of which are in support of his border 
wall.
    Those who allege rampant exploitation of our borders and 
immigration system by transnational gangs like MS-13 often fail to 
acknowledge the hundreds of millions of immigrants that reside legally 
and peacefully in our country.
    After 1 year, it has become crystal clear that President Trump does 
not understand how important immigrant communities are to the history, 
makeup, and future of our country.
    We are left to wonder whether many Republican Members of Congress 
actually agree with Trump or are simply afraid to hold him accountable.
    The committee has examined transnational gangs in the past, 
including a subcommittee field hearing on MS-13 in Long Island, New 
York, last summer.
    However, this administration and Republicans have focused solely on 
the threat from MS-13, while Democrats acknowledge that there are a 
wide range of threats posed by transnational gangs and TCOs, not just 
MS-13.
    I want to be clear, I remain committed to protecting our homeland 
from transnational criminal threats and activities such as murder, 
assault, human trafficking, money laundering, and cyber crime, as well 
as drug trafficking.
    However, I am not willing to give President Trump a blank check to 
carry out his dangerous, un-American policy goals.

    Mr. Perry. We are pleased to have a distinguished panel of 
witnesses before us today on this important topic. All the 
witnesses are reminded that their written testimony will be 
submitted for the record.
    Our first witness is Mr. Stephen E. Richardson, the 
assistant director for the Criminal Investigative Division of 
the Federal Bureau of Investigation. Mr. Richardson joined the 
FBI as a special agent in 1996. He has worked with the bureau 
in Louisiana, Tennessee, Virginia, and several stints at 
headquarters.
    Throughout his career, he has specialized in the 
investigation of white-collar crime, public corruption, hate 
crime, violent crime, gang matters, and counterterrorism. Since 
April 2016 Mr. Richardson has served as assistant director of 
the Criminal Investigation Division with oversight of all FBI 
criminal matters.
    Thank you for being here today and--does he recognize 
individually or all? OK. Well, thank you for being here today 
and we are going to recognize you individually.
    So you can begin with your testimony, Mr. Richardson.

    STATEMENT OF STEPHEN E. RICHARDSON, ASSISTANT DIRECTOR, 
      CRIMINAL INVESTIGATION DIVISION, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Richardson. Representative Perry, Chairman McCaul, 
Ranking Member Rice, and Members of the committee, I would like 
to thank each of you for inviting me here today to discuss this 
very important issue. My name is Steve Richardson and I am the 
assistant director for the FBI's Criminal Investigative 
Division.
    The issues that we are going to talk about today fall under 
my leadership at the FBI. The FBI is dedicated to defeating 
those transnational organized crime groups referred to as TOC 
groups, which pose the greatest threat to our National and 
economic security.
    To combat the on-going threat posed by these groups, the 
FBI has a long-established TOC program. The FBI uses the 
Racketeer Influence and Corrupt Organizations Act to expand 
criminal accountability for a number of predicate offenses and 
to expand a single offense across multiple members of a 
criminal enterprise.
    Utilizing a multi-pronged approach to target a variety of 
criminal activities and impact the group's financial stability, 
the FBI is able to disrupt or dismantle the entire enterprise, 
not just a few key people.
    The FBI leverages trusted relationships both domestically 
and internationally to combat and influence the reach of these 
transnational criminal enterprises. The FBI has long been a 
proponent of the task force model, and in 1992 we stood up the 
first Safe Streets Violent Gang Task Force, specifically to 
address transnational gangs.
    The mission of these task forces is to fully integrate our 
State and local partners to address threats posed by violent 
criminal gangs in communities across our great country. This 
involves working with State and local task force officers, 
commonly referred to as TFOs, who have direct knowledge of the 
criminal activities occurring within their specific 
jurisdictions.
    The collaboration of FBI special agents and local law 
enforcement creates a comprehensive approach utilizing both 
State and Federal statutes to address these violent gangs from 
top to bottom.
    The FBI currently operates and provides oversight to 169 of 
these particular task forces comprised of nearly 800 special 
agents, 1,400 TFOs, and 58 other Federal law enforcement 
partners in all of the FBI's 56 field offices.
    Collectively these task forces average approximately 5,100 
arrests of violent criminal gang members annually and have 
averaged over 2,000 seizures of firearms in each of the past 2 
years. Our ultimate goal and the goal of each task force is to 
have a positive effect on the communities by disrupting and 
dismantling violent criminal organizations.
    On the international front, the FBI's Transnational Anti-
gang Task Forces, we refer to those at TAGs, work with 
international partners to target transnational gangs, both 
domestically and internationally.
    The TAG program was created through cooperation between the 
FBI and the U.S. Department of State in El Salvador, Guatemala, 
and Honduras and is responsible for the investigation of the 
MS-13 gang and other violent transnational gangs such as the 
18th Street gang.
    The mission of the TAG is to conduct gang enforcement 
operations and gather actionable strategic intelligence for 
domestic use by our Safe Streets Violent Gang Task Forces and 
to further disseminate this information to U.S. law enforcement 
partners.
    Recently, the TAG has conducted a coordinated arrest 
operation in all three countries in the Northern Triangle, 
targeting both MS-13 and 18th Street, resulting in the arrest 
of 754 violent gang members. The arrest also led to the seizure 
of multiple items of evidence which are currently being 
exploited for their intelligence value.
    Apart from our task forces, the FBI's Criminal 
Investigative Division actively participates in multi-agency 
intelligence entities, such as the National Gang Intelligence 
Center, Special Operations Division, and Organized Crime Drug 
Enforcement Task Force or OCDETF Fusion Center.
    Although vetting and possible arrest of individuals at the 
border is primarily a function of the Department of Homeland 
Security, the FBI makes every effort to gather and share 
intelligence on a timely basis related to the movement and 
recruitment of gang members prior to and upon entry into the 
United States.
    Information sharing is critical to fulfilling this 
responsibility and the FBI is dedicated to improving 
communication with our partners. Please know we will continue 
to direct tremendous resources and effort to targeting, 
investigating, prosecuting, and dismantling these transnational 
criminal gangs.
    Chairman McCaul, Chairman King, Representative Perry, 
Ranking Member Rice, and other Members of the committee, I 
thank you again for having me here today. I am honored to 
represent the FBI and the fine men and women of our 
organization, and I look forward to answering your questions. 
Thank you.
    [The prepared statement of Mr. Richardson follows:]
              Prepared Statement of Stephen E. Richardson
                            January 18, 2018
    Good morning Chairman McCaul, Chairman King, Ranking Member Rice, 
and Members of the committee. Thank you for this opportunity to discuss 
the Federal Bureau of Investigation's (FBI) efforts to combat the 
transnational gang threat and the FBI's use of task forces.
    The FBI is dedicated to eliminating transnational organized crime 
(TOC) groups that pose the greatest threat to the National and economic 
security of the United States. Some TOC groups can be hierarchies, 
clans, networks, or cells, and may evolve into other structures. The 
depth and financial stability of these organizations often allow them 
to continue long after key members are removed. Therefore, the FBI 
targets entire organizations responsible for a variety of criminal 
activities. TOC groups are independent associations that operate by 
illegal means across borders, and many of these associations encompass 
both the Eastern and Western hemispheres. With the increase of 
technology available around the world, TOC groups are more commonly 
incorporating cyber techniques into their illicit activities.
    To combat the on-going threat posed by these groups, the FBI has a 
long-established transnational organized crime program dedicated to 
eliminating the criminal enterprises that pose the greatest threat to 
America. The FBI uses the Racketeer Influenced and Corrupt 
Organizations (RICO) Act to target entire criminal organizations and to 
address the full extent of the criminal conduct by the leaders, 
members, and associates of those organizations. Unlike typical 
investigations, which target a single criminal act, this multi-pronged 
approach allows the FBI to disrupt or dismantle the entire enterprise.
    The FBI leverages political and law enforcement relationships 
domestically and abroad to combat the influence and reach of these 
organized crime groups due to the transnational nature of these 
criminal enterprises.
    The FBI also participates in selecting TOC groups to appear on the 
Department of Justice's Top International Criminal Organizations Target 
(TICOT) List, and contributes to the Treasury Department's Office of 
Foreign Asset Control (OFAC) efforts to pursue criminal enterprises. 
Further, to pool resources and leverage technical and investigative 
expertise, the FBI participates in many Organized Crime Task Forces 
consisting of State and local law enforcement partners in the United 
States.
    Specific to transnational gangs, the FBI established the first Safe 
Streets Violent Gang Task Force (SSVGTF) in 1992. The mission of our 
SSVGTFs is to fully integrate our State and local partners to address 
threats posed by violent criminal gangs that have a destructive effect 
in our communities across the country. A key component of this success 
involves the utilization of Task Force Officers (TFOs) who have direct 
knowledge of the criminal activity occurring in their jurisdictions. 
This collaboration of FBI Special Agents and local law enforcement 
creates a comprehensive approach to addressing these violent gangs from 
top to bottom utilizing the Enterprise Theory of Investigation (ETI). 
ETIs are intelligence-driven investigations which seek to identify the 
hierarchy of a criminal enterprise and the scope of their criminal 
activity. The SSVGTF can then utilize State and Federal statutes to 
address all elements of the violent criminal organization. The success 
of the SSVGTFs is directly related to the ability to cross-
programmatically leverage all resources and expertise of the FBI.
    The FBI currently operates and provides oversight to 169 SSVGTFs 
comprised of nearly 800 Special Agents, 1,400 TFOs, and 58 other 
Federal law enforcement partners in all of the FBI's 56 field offices. 
Collectively, these SSVGTFs average approximately 5,100 arrests of 
violent criminal gang members annually. Additionally, SSVGTFs have 
averaged over 2,000 seizures of firearms in each of the past 2 years. 
Although the numbers are impressive, the ultimate goal of all SSVGTFs 
is to have a positive effect on communities by disrupting and 
dismantling the violent criminal organizations that exist within them.
    In addition to our domestic task forces, the FBI's Transnational 
Anti-Gang Task Forces (TAGs) continue to work with international 
partners to eradicate transnational gangs domestically and 
internationally. The TAG program was first created in 2007 in El 
Salvador through the cooperation between the FBI and the U.S. 
Department of State. The TAG expanded to Guatemala and Honduras in 2009 
and 2011, respectively. The TAG is currently comprised of six FBI 
Special Agents and 120 vetted police officers. Each TAG is a fully 
operational unit responsible for the investigation of MS-13 and other 
violent transnational gangs, such as 18th Street. The focus of the TAG 
is to conduct gang enforcement operations and gather actionable, 
strategic intelligence for domestic use by the SSVGTFs and 
dissemination to U.S. law enforcement partners.
    Additional valuable intelligence provided by the TAG include: 
Affiliations with other violent criminal gangs; associations with drug 
cartels; and illicit activity, such as human trafficking and firearms 
trafficking. Recently, the TAG conducted a coordinated transnational 
gang arrest operation in all three countries. The operation targeted 
members of both MS-13 and 18th Street, resulting in the arrests of 754 
MS-13 and 18th Street gang members. The arrests also led to the seizure 
of multiple items of evidence, which are being exploited for their 
intelligence value.
    The FBI utilizes a comprehensive approach combining intelligence 
with operations to more effectively combat gang violence. Apart from 
our task forces, the FBI has numerous analysts and agents dedicated to 
studying the threats posed by MS-13 and other transnational criminal 
gangs via the National Gang Intelligence Center (NGIC). NGIC is a 
multi-agency intelligence entity that supports law enforcement agencies 
through timely and accurate information sharing and strategic/tactical 
analysis of Federal, State, and local law enforcement intelligence. 
NGIC is co-located at FBIHQ with the Safe Streets Gang Unit to further 
enhance integration of intelligence and operations. Additionally, the 
FBI's Criminal Investigative Division (CID) participates in the Special 
Operations Division (SOD) which is a multi-agency intelligence center 
wherein the FBI is one of over 30 partners. The primary focus of SOD is 
to identify and target command-and-control communications of those 
criminal organizations that operate across regional, National, and 
international boundaries and to facilitate de-confliction and 
coordination of law enforcement investigations.
    In addition to SOD, the FBI participates in the Organized Crime 
Drug Enforcement Task Force's (OCDETF) Fusion Center (OFC); this 
collaborative integrated center is a multi-agency operational 
intelligence center that provides law enforcement with analytical 
resources, case de-confliction, and information sharing to develop the 
most complete intelligence picture of targeted drug trafficking 
organizations and other complex criminal organizations. The OFC brings 
together 112 datasets from 21 separate Federal and international 
agencies, along with open-source information, to generate intelligence 
products for FBI investigations. Furthermore, the FBI continues to be a 
vital participant in scores of OCDETF investigations that are 
countering TCOs and Transnational Gangs, like MS-13. In October 2017, 
the Attorney General explicitly directed that MS-13 be a priority of 
the multi-agency OCDETF Program, authorizing and encouraging 
investigative agencies and prosecutors to leverage OCDETF's funding, 
infrastructure, and other resources to target MS-13.
    Although the vetting and possible arrest of individuals at the 
border is primarily a function of the Department of Homeland Security, 
U.S. Customs and Border Protection (CBP), the FBI makes every effort to 
gather intelligence related to the movement and recruitment of these 
gang members prior to and upon entry into the United States. 
Information sharing with our partners is critical to fulfilling this 
responsibility, and the FBI is continually working to improve the way 
in which we and our partners communicate. Please know we will continue 
to dedicate tremendous resources and efforts to targeting, 
investigating, prosecuting, and dismantling these transnational 
criminal gangs.
    Chairman McCaul, Chairman King, Ranking Member Rice, and Members of 
the committee, thank you again for this opportunity to discuss the 
FBI's efforts to eradicate the threat posed by transnational gangs. I 
look forward to answering any questions you may have.

    Mr. King [presiding]. Thank you, Mr. Richardson.
    First of all, let me express my regret for not being here 
on time. We had a meeting of the Intelligence Committee, which 
went over time. But I want to thank all the witnesses for their 
testimony up to now.
    I want to thank Mr. Perry for filling in for me. I am sure 
he did a far better job than I would have. Of course thank the 
Ranking Member for her support in putting this hearing 
together.
    So thank you, Mr. Richardson.
    Our second witness now is Mr. Raymond Villanueva, the 
assistant director for International Operations with Homeland 
Security Investigations at U.S. Immigration and Customs 
Enforcement. He began his law enforcement career in 1994 with 
the Puerto Rico Police Department.
    Since joining Immigration and Customs Enforcement, Mr. 
Villanueva has served in numerous key positions, including 
group supervisor for the Financial Crimes Asset Forfeiture and 
Removal Group from Buffalo, New York, section chief of the 
Illicit Finance and Proceeds Crime Unit in Washington, DC, 
assistant special agent in charge for the HSI San Juan office 
and most recently as a deputy assistant director for HSI 
international operations.
    Mr. Villanueva has more than 22 years of law enforcement 
experience.
    Let me just say that with the situation we have in Long 
Island with MS-13, HSI has been invaluable. Through you thank 
all of them for the great job they are doing in conjunction 
with the FBI. It has just been, again, phenomenal cooperation 
and also working with the local police in Suffolk County and 
Nassau County. It has been extraordinary. So I thank you.
    Mr. Villanueva, you are now recognized for your testimony.

STATEMENT OF RAYMOND VILLANUEVA, ASSISTANT DIRECTOR IN CHARGE, 
    INTERNATIONAL OPERATIONS, U.S. IMMIGRATION AND CUSTOMS 
                          ENFORCEMENT

    Mr. Villanueva. Thank you, Chairman King. Mr. Perry, thank 
you for starting the hearing and Ranking Member Rice, and 
distinguished Members. Thank you for the opportunity to appear 
before you today to discuss U.S. Immigration and Customs 
Enforcement Homeland Security Investigations with efforts to 
investigate, disrupt, and dismantle transnational criminal 
organizations or TCOs, to include violent gangs in the United 
States and abroad.
    HSI utilizes its broad legal authorities to investigate 
immigration and customs violations across several programmatic 
areas, including investigating and dismantling TCOs and gangs.
    During the last two decades, transnational organized crime 
has expanded dramatically, which poses a significant threat to 
National security.
    We take this threat very seriously and target TCOs at every 
critical location in the cycle by utilizing a layered approach 
that is internationally by pushing our borders out in 
cooperation with foreign counterparts where transnational 
criminal and terrorist organizations operate at our Nation's 
border, in coordination with U.S. Customs and Border 
Protection, CBP, where the transportation cells attempt to 
exploit America's legitimate trade, travel, and transportation 
systems and in cities throughout the United States where 
criminal organizations earn substantial profits off their 
illicit activities.
    As of December 28, 2017 we maintain over 100 open 
investigations targeting MS-13 members and their criminal 
organization throughout all the United States and abroad by 
working with our law enforcement partners, including those in 
countries such as Guatemala, Honduras, and El Salvador.
    Without our information sharing and partnering with our 
Federal, State, local and foreign law enforcement partners, HSI 
would not be nearly as successful at battling MS-13 and other 
gangs.
    In response to the gang epidemic in 2005, ICE initiated 
Operation Community Shield, which combines HSI and Enforcement 
and Removal Operations, ERO, expansive criminal and civil 
enforcement authorities, as well as our partnerships with law 
enforcement stakeholders, domestically and abroad.
    Through this platform, HSI executes on the gang initiative, 
including specialized urban response gang enforcement, known as 
search operations. Since inception, HSI and its partner 
agencies have made over 60,000 criminal and administrative 
arrests of gang leaders, members, and associates, including 
more than 7,900 MS-13s.
    HSI's most recent search operation, Project New Dawn, the 
largest gang search to date, resulted in 1,378 arrests. At the 
same time, we pursue domestic criminal investigations. We 
continue to push the borders out by capitalizing on our 
international partnerships with foreign law enforcement 
officials.
    This is accomplished by our attache network located in 67 
offices around the world. Our attaches leverage several key 
international partnerships, to include the Transnational 
Criminal Investigative Units, the TCIUs, and Operation CITADEL 
to identify potential bad actors along the illicit pathways 
while exploiting available information with the goal of 
identifying a known gang posing a threat to the United States.
    HSI also leverages information-sharing capabilities through 
the use of several key initiatives, some of which I would like 
to highlight briefly. The Visa Security Program, through this 
program we partner with CBP and Department of State by 
deploying trained special agents to high-risk visa-issuing 
posts to identify and investigate potential terrorist and 
criminal threats before they reach the United States.
    The Trade Transparency Units, the TTUs are designed to 
aggressively target organizations and individuals involved in 
trade-based money laundering and also those involved in 
contraband smuggling and customs fraud. All TTU foreign 
partners, 16 today, recognize the value of information sharing.
    Last but not least, the Biometric Identification Migrant 
Alert Program, what we call BITMAP. This program helps provide 
infrastructure and capability for host governments to collect 
biometric data on individuals they encounter.
    We and CBP's National targeting center then share 
information back with our foreign partners. Through this 
process we are able to track movement toward the United States, 
take joint action with partner nations along the route and 
deter human smuggling through South and Central America. BITMAP 
is deployed to 14 countries.
    These operational endeavors would not have been possible 
without the cooperation of our Federal, State, local, and 
foreign law enforcement partners, including the support 
provided by the Department of State through its country team 
and their Bureau of International Narcotics and Law Enforcement 
Affairs.
    Thank you again for the opportunity to appear before you 
today and for your continued support of ICE and our law 
enforcement mission. I am looking forward to answering any 
questions you may have.
    [The prepared statement of Mr. Villaneuva follows:]
                Prepared Statement of Raymond Villanueva
                            January 18, 2018
    Chairman King, Ranking Member Rice, and distinguished Members: 
Thank you for the opportunity to appear before you today to discuss the 
mission of U.S. Immigration and Customs Enforcement (ICE), its efforts 
to identify, disrupt, and dismantle transnational criminal 
organizations (TCOs), to include transnational gangs, drug cartels, and 
smugglers, and its information-sharing initiatives dedicated to 
combatting the aforementioned threats. ICE enforces approximately 400 
Federal laws governing border control, customs, trade, and immigration 
to promote homeland security and public safety. With more than 20,000 
employees and more than 400 offices across the United States and in 50 
countries, the men and women of ICE execute our mission humanely, 
professionally, and always in accordance with the law. ICE has three 
operational directorates: Homeland Security Investigations (HSI), 
Enforcement and Removal Operations (ERO), and the Office of the 
Principal Legal Advisor. As a senior executive of ICE/HSI, I serve as 
the assistant director of ICE/HSI International Operations.
    As the largest investigative component in the Department of 
Homeland Security (DHS), ICE/HSI protects U.S. borders by conducting 
multi-faceted, international law enforcement operations, and by 
partnering with foreign and domestic counterparts to combat criminal 
organizations and prevent terrorist activities.
    ICE/HSI International Operations has a network of over 400 
personnel, including over 180 special agents deployed to 67 attache 
offices in 50 countries, who conduct investigations against TCOs, 
terrorist, and other criminal organizations that threaten our National 
security. ICE/HSI leverages its international footprint and 
partnerships to disrupt and dismantle TCOs that seek to exploit 
America's legitimate trade, travel, and financial systems, and enforces 
U.S. customs and immigration laws at and beyond our Nation's borders to 
prevent threats from entering the United States.
    ICE/HSI manages several strategic/information sharing initiatives, 
which include:
  <bullet> Transnational Criminal Investigative Unit (TCIU)
  <bullet> Biometric Identification Transnational Migration Alert 
        Program (BITMAP)
  <bullet> Visa Security Program (VSP)
  <bullet> Trade Transparency Units (TTUs)
    HSI, domestically and abroad, focuses on critical investigative 
areas, which include:
  <bullet> National security
  <bullet> Counter-proliferation of arms and controlled technology
  <bullet> Human smuggling and trafficking
  <bullet> Financial crimes
  <bullet> Child exploitation
  <bullet> Commercial fraud and intellectual property
  <bullet> Anti-Gang Enforcement
  <bullet> Narcotics
  <bullet> Identity and Benefit Fraud
  <bullet> Worksite Enforcement
  <bullet> Cyber
  <bullet> Human Rights Violators and War Crimes.
    ICE/ERO identifies, arrests, and removes aliens who present a 
danger to National security or are a risk to public safety, as well as 
those who enter the United States illegally, or otherwise undermine the 
integrity of U.S. immigration laws and border control efforts. ERO 
upholds America's immigration laws at, within, and beyond its borders 
through efficient enforcement and removal operations. ERO also develops 
investigative leads and provides support in locating and arresting 
foreign nationals wanted for crimes committed abroad who are now at-
large in the United States.
    ERO removal operations require complex coordination, management, 
and facilitation efforts to successfully remove or return aliens from 
the United States to their country of origin. ERO has enforcement 
officers strategically deployed to 19 locations around the world and 
leverages resources available through foreign law enforcement partners, 
including INTERPOL, EUROPOL, and the HSI Attache corps.
            combatting transnational criminal organizations
    ICE utilizes its broad legal authorities to investigate immigration 
and customs violations, including those related to export control, 
human rights abuses, narcotics, weapons and contraband smuggling, 
financial crime, cyber crime, human trafficking and smuggling, child 
exploitation, intellectual property theft, transnational gangs, 
immigration document and benefit fraud, and worksite enforcement. ICE 
is grateful for continued Congressional support that allows ICE to 
maintain critical operations at home and abroad and increase our 
efforts to target and combat dangerous transnational gangs and other 
criminal organizations.
    During fiscal year 2017, ICE investigations led to the disruption 
or dismantlement of TCOs with more than 32,958 criminal arrests, 
including arrests of more than 4,818 transnational gang members. ICE 
also seized 981,586 pounds of narcotics, made 1,205 seizures for 
violations of U.S. export laws and regulations, and seized nearly $307 
million in currency and monetary instruments. Additionally, ICE 
identified and assisted 518 human trafficking victims and more than 904 
child exploitation victims.
    During the last two decades, transnational organized crime has 
expanded dramatically in size, scope, and impact, which poses a 
significant threat to National security. ICE takes very seriously this 
threat, and targets TCOs at every critical location in the cycle: 
Internationally, in cooperation with foreign counterparts, where 
transnational criminal and terrorist organizations operate; at our 
Nation's physical border and ports of entry, in coordination with U.S. 
Customs and Border Protection (CBP), where the transportation cells 
attempt to exploit America's legitimate trade, travel, and 
transportation systems; and in cities throughout the United States, 
where criminal organizations earn substantial profits off their illicit 
activities.
    As directed by the President's Executive Order 13773, Enforcing 
Federal Law with Respect to Transnational Criminal Organizations and 
Preventing International Trafficking, ICE will continue to give a high 
priority and devote sufficient resources to dismantling TCOs and 
subsidiary organizations. ICE will continue to focus on cooperative 
work with other Federal agencies, as well as with foreign counterparts, 
by sharing intelligence and law enforcement information when 
appropriate and permitted by law.
                           joint task forces
    In 2014, the Department announced its new Unity of Effort 
Initiative and directed our Department-wide Southern Border and 
Approaches Campaign (SBAC) Plan. The SBAC is part of a comprehensive 
security strategy designed to unify efforts across DHS components to 
address threats specifically associated with terrorism, illicit market-
driven flows, and illegal migration across our Southern Border and 
Approaches. In furtherance of the SBAC, the Department commissioned 
three Joint Task Forces (JTFs) in November 2014. The three Joint Task 
Forces, JTF-East (JTF-E), JTF-West (JTF-W), and JTF-Investigations 
(JTF-I), are responsible for establishing operational priorities and 
synchronizing capabilities in order to achieve SBAC objectives.
    Two of the JTFs, JTF-E and JTF-W, are geographically focused task 
forces that concentrate on the southern land and maritime borders and 
approaches to the United States all the way to Central and South 
America. JTF-I is a ``functional'', multi-component task force that 
employs National Case Management to identify and prioritize top TCOs 
affecting homeland security, manage investigations and operations to 
dismantle them, and identify weaknesses or gaps in our practices, 
technology, etc.
    To address these gaps, JTF-I created and implemented HOMECORT 
(Homeland Criminal Organization Target), the DHS-wide process for 
identifying and prioritizing the top criminal networks affecting 
homeland security.
    In order to manage and unify U.S. Government efforts against these 
HOMECORT criminal networks, JTF-I developed three complementary 
processes:
    1. National Case Management to manage, integrate and support all 
        the investigations and operations related to the targeted 
        criminal network;
    2. Comprehensive Criminal Network Analysis to provide knowledge of 
        the criminal network; and
    3. Integrated Action Planning to establish the business rules for 
        conducting National Case Management and producing Comprehensive 
        Criminal Network Analysis.
    Through the sharing and fusing of each other's information, these 
JTF-I processes allow DHS components to:
  <bullet> Identify and prioritize the top criminal networks impacting 
        homeland security;
  <bullet> Tie together and manage all the investigations, operations, 
        arrests, and seizures (covering multiple countries, 
        jurisdictions, areas of responsibility and programs) related to 
        all the activities (smuggling, money laundering, corruption, 
        etc.) of a criminal network (see complementary processes 
        below);
  <bullet> Move toward a complex common goal through a formal 
        integrated action planning process.
    Since its inception, JTF-I's interagency delegates managed and 
supported the targeting of 21 HOMECORT criminal networks, comprised of 
more than a thousand criminal investigations. To date, 13 of those 
networks were dismantled to the point they no longer threaten homeland 
security. The networks include money launderers, human smugglers, sex 
traffickers, drug smugglers, bulk cash smugglers, and weapons 
smugglers. The remaining HOMECORT-designated criminal networks continue 
to be the targets of active criminal investigations.
    Another example of a successful joint task force model is the 
Border Enforcement Security Task Force (BEST) initiative. BEST teams 
are ICE-led, multiagency task forces that target illicit movement of 
people and contraband through border areas. Other DHS entities, 
particularly CBP and the United States Coast Guard, participate. There 
are 38 BEST teams on the U.S.-Canada border and U.S.-Mexico border. 
Canadian and Mexican (multiagency) law enforcement partners work 
directly with DHS and other U.S. counterparts on investigative and 
interdiction missions. Canadian officials are often cross-designated as 
U.S. law enforcement (U.S. Code: Title 19) to promote full sharing of 
law enforcement information. These units are housed on the U.S. side of 
the border. In fiscal year 2017, the BEST teams initiated 4,034 
investigations and effected 4,967 criminal arrests.
                           national gang unit
    The National Gang Unit (NGU) is a critical part of ICE's mission to 
bring the fight to transnational criminal gangs. The NGU identifies and 
develops intelligence on gang membership, associations, activities, and 
international movements. It also deters and disrupts gang operations by 
tracing and seizing cash, weapons, and other assets derived from 
illicit activities.
    In 2005, ICE initiated Operation Community Shield, an international 
law enforcement initiative that combines ICE's expansive statutory and 
civil enforcement authorities to combat the growth and proliferation of 
transnational criminal street gangs, prison gangs, and outlaw 
motorcycle gangs throughout the United States. With assistance from 
State, local, Tribal, and foreign law enforcement partners, the 
initiative helps ICE locate, investigate, prosecute, and where 
applicable, immediately remove gang members from our neighborhoods and 
ultimately from the United States.
    Operation Community Shield has resulted in the criminal and 
administrative arrests of nearly 60,000 gang leaders, members, and 
associates since its inception. Among those arrests, Community Shield 
operations have resulted in the criminal and administrative arrests of 
over 7,800 leaders, members, and associates of Mara Salvatrucha-13 (MS-
13), the international criminal street gang.
    In 2012, ICE worked with the Treasury Department Office of Foreign 
Assets Control (OFAC) to designate MS-13 as a TCO, the first criminal 
street gang so designated. As a result of the designation, any property 
or property interests in the United States, or in the possession or 
control of U.S. persons in which MS-13 has an interest, are blocked. In 
addition, U.S. persons are prohibited from engaging in transactions 
with MS-13 and are subject to civil monetary penalties up to $250,000 
and imprisonment up to 20 years.
    In 2016, ICE utilized the 2012 OFAC designation to develop and 
implement a new strategy targeting MS-13. ICE recognizes that TCOs need 
funding to maintain and expand their criminal organization and has been 
successfully identifying, exploiting, and disrupting MS-13's global 
financial networks. Part of ICE's new strategy is to address the 
threats posed by MS-13 in the United States and at their command-and-
control structure in El Salvador simultaneously. Since January 2016, 
ICE has been deploying special agents to El Salvador to work with our 
host country law enforcement partners to build their financial 
investigative capacity to combat MS-13 and identify MS-13's financial 
networks within El Salvador. In addition, the deployment allows the 
free flow of actionable intelligence between ICE and our host country 
law enforcement partners.
    In 2017, ICE worked with our DHS partners to form a departmental 
MS-13 Working Group, to include ICE, CBP, U.S. Citizenship and 
Immigration Services (USCIS), and the Department of Justice's Bureau of 
Prisons (BOP). The DHS MS-13 Working Group was formed to share 
intelligence, bridge intelligence gaps, eliminate redundancies, enhance 
collaboration, and provide visibility to all DHS entities involved in 
the fight against MS-13. The ultimate goal of the DHS MS-13 Working 
Group is to develop and implement a DHS enterprise enforcement strategy 
to disrupt and dismantle MS-13's global criminal networks.
    As of December 28, 2017, ICE maintains 107 open investigations 
targeting MS-13 members and their criminal organizations globally, 
including Massachusetts, New York, New Jersey, Maryland, the District 
of Columbia, North Carolina, Texas, Tennessee, Ohio, California, 
Washington, and the Northern Triangle countries of Guatemala, Honduras, 
and El Salvador through Racketeer Influenced and Corrupt Organizations 
(RICO), Violent Crimes in Aid of Racketeering (VICAR), and criminal 
conspiracy prosecutions. Without information sharing and partnering 
with our Federal, State, local, and foreign law enforcement partners, 
ICE would not be nearly as successful at battling MS-13 and other 
gangs.
              law enforcement information-sharing efforts
    In addition to leveraging domestic assets, ICE uses its 
strategically deployed personnel around the globe to use established 
relationships with host country law enforcement officials and 
mechanisms such as Customs Mutual Assistance Agreements (CMAAs) to 
share information and further its investigations. Mutual Legal 
Assistance Treaties (MLATs) are also invaluable instruments in 
obtaining and receiving international legal assistance, including 
evidence, for criminal investigations and prosecutions.
    ICE International Operations also partners with TCIUs and 
international task forces in 12 countries around the world. TCIUs are 
comprised of foreign law enforcement officials, customs officers, 
immigration officers, and prosecutors who receive ICE training and 
undergo a strict vetting process to ensure that shared information and 
operational activities are not compromised. Partnering with these TCIUs 
enables ICE to promote direct action via information sharing and 
investigative leads while respecting the sovereignty of the host 
country and cultivating international partnerships.
    Aligned with the President's Strategy in Combatting Transnational 
Organized Crime, TCIUs identify targets, collect evidence, share 
intelligence, and facilitate the prosecution of TCOs both in-country 
and in the United States. These efforts, which often occur thousands of 
miles from the U.S. borders, essentially act as an outer layer of 
security for the United States.
    Another ICE program, BITMAP, helps provide infrastructure and 
capability for host governments to collect biometric data on 
individuals they encounter. This information is shared with U.S. law 
enforcement and the intelligence community; DHS in turn provides 
information back to these countries about these individuals. Through 
this process, ICE is able to track movement toward the United States, 
take joint action with partner nations along the route, and deter human 
smuggling through South and Central America. Comparisons of biometric 
data through BITMAP serve to identify criminal persons, wanted subjects 
(including international fugitives), and known or suspected terrorists. 
BITMAP is currently deployed to 14 countries, with near-term plans to 
expand to two additional countries.
    ICE also leverages its information-sharing capabilities through the 
use of the Visa Security Program (VSP) and Trade Transparency Units 
(TTU). VSP deploys trained ICE special agents abroad to high-risk visa 
activity posts to identify and investigate potential terrorist and 
criminal threats before they reach the United States. VSP contributes 
to both counter-flow and counter-network capabilities, as well as 
providing support for intelligence, interdiction, and engagement. VSP 
special agents work alongside Department of State Consular Officers to 
provide real-time feedback on visa applicants prior to visa 
adjudication. VSP agents receive referrals based on automated screening 
of U.S. visa applicants conducted by ICE, in cooperation with CBP.
    The core mission of the TTU is to aggressively target criminal 
organizations and individuals involved in trade-based money laundering 
(TBML) but also those perpetrating contraband smuggling and customs 
fraud. In order to achieve this mission, HSI reached out to key foreign 
trading partners and successfully established (16) TTUs abroad. TTU 
currently has partnerships with Argentina, Australia, Brazil, Chile, 
Colombia, Dominican Republic, Ecuador, Mexico, France, Guatemala, 
Panama, Paraguay, Peru, Philippines, United Kingdom, and Uruguay. These 
countries are highly dependent upon value-added taxes (VAT) on 
commodities, which served as a motivating factor in the establishment 
of TTUs. These foreign partners recognize the value of information 
sharing, which permits the comparison of international trade and cross-
border movement of merchandise.
    The United States and its foreign TTU partners currently provide 
trade data which that allows HSI investigators and analysts to detect 
anomalies which may be indicative of criminal activity such as TBML, 
contraband smuggling, and trade/customs fraud. This information sharing 
allows for the cross-referencing of trade data with other pertinent 
information such as Bank Secrecy Act (BSA) reports. The ultimate goal 
of most criminal organizations is financial gain either to promote on-
going illicit activity or as the finality of this activity, hence 
trade-based money laundering is often the primary means by which they 
launder proceeds for their criminal enterprises.
    ICE's Law Enforcement Information-Sharing Initiative (LEISI) serves 
as an active advocate in support of law enforcement information sharing 
both internal and external to DHS. This includes information sharing 
between Federal, State, local, Tribal, territorial, and foreign 
partners. LEISI coordinates throughout the law enforcement community to 
improve the understanding of information needs, provide leadership in 
resolving policy issues that may inhibit law enforcement information 
sharing, and develop approaches to overcome traditional barriers to 
information sharing.
    The LEISI program provides program management support and oversight 
to include administration of the Law Enforcement Information Sharing 
Strategy. For fiscal year 2018, additional focus is on international 
information for initiatives such as: Preventing and Combatting Serious 
Crimes (PCSC), the Five Country Ministerial (FCM), the Five Country 
Conference (FCC), and ERO's Criminal History Information Sharing (CHIS) 
program.
    CHIS is a DHS-led initiative between the United States and its 
international partners whose purpose is to provide participating 
nations with criminal history information in advance of an alien's 
removal. In turn, foreign countries share their information with the 
United States. The information shared helps protect law enforcement 
personnel, regional security, and public safety officers all over the 
globe. The initiative supports efforts in immigration management, law 
enforcement and National security. Countries currently participating in 
the CHIS initiative are: Mexico, Dominican Republic, Jamaica, the 
Bahamas, El Salvador, Honduras, and Guatemala, with planned expansion 
to additional countries in fiscal year 2018.
    CHIS enables ICE to identify wanted felons, including gang members, 
who fled to the United States to avoid prosecution in their home 
countries. Without this initiative, dangerous criminals might be able 
to circumvent prosecution. In fiscal year 2017, CHIS sent 84,067 
outbound notices of removal and ICE's foreign partners returned 21,434 
positive responses, including 2,810 foreign criminal history records, 
93 foreign criminal warrants and information related to 199 
transnational gang members.
    During fiscal year 2017, ICE achieved significant successes in 
Latin America and the Caribbean through the development of programs 
that bolstered the law enforcement, customs, and immigration 
enforcement capabilities of international partners. These successes 
included the joint interagency execution of Operation CITADEL, which 
focused efforts on building partner nation capacity in identifying, 
disrupting and dismantling TCOs, including those designated as drug 
trafficking organizations and terrorist support networks. Interagency 
information sharing and collaboration from agencies within DHS, the 
Department of State, the Department of Justice (including the Federal 
Bureau of Investigation), and the Department of Defense, as well as 
participating partner nations, has been an essential piece of Operation 
CITADEL's efforts to build capacity and to address identified threats. 
Operation CITADEL provided resources to enhance foreign partners' 
investigative capabilities to counter transnational threats and 
organized crime that, in turn, provided ICE the ability to expand 
domestic and international investigations well beyond the U.S. borders 
and to more effectively target the illicit pathways exploited by TCOs.
    In fiscal year 2017, the Operation CITADEL effected the training of 
809 partner national personnel, 231 criminal arrests, 54 indictments, 9 
convictions, 2,005 BITMAP enrollments, seizure of $252,235 in currency, 
18,224 pounds of narcotics, seizure of 27 firearms, and encountered 
3,669 aliens of possible National security concern.
                               conclusion
    Thank you again for the opportunity to appear before you today and 
for your continued support of DHS and ICE and their missions. ICE is 
committed to continuing its successful practice of sharing information 
with domestic and foreign partners and leveraging its resources around 
the world to stem cross-border criminal organizations. I appreciate 
your interest in these important issues and the efforts I have 
discussed today.
    I would be pleased to answer any questions you may have.

    Mr. King. Thank you very much, Mr. Villanueva for your 
testimony and for your service.
    Our final witness is Mr. Richard H. Glenn, the acting 
deputy assistant secretary for the Bureau of International 
Narcotics and Law Enforcement Affairs in the State Department.
    Mr. Glenn oversees his department's air wing and is 
responsible for foreign assistance programs in the Western 
Hemisphere that combat illicit drugs and organized crime and 
support law enforcement and the rule of law. Mr. Glenn began 
working with International Narcotics and Law Enforcement 
Affairs in 2011 in Mexico City, implementing the Merida 
Initiative.
    Since joining the State Department as a foreign service 
officer in 1999, Mr. Glenn has served in Ecuador, South Africa, 
Czech Republic, Argentina, and Mexico.
    Mr. Glenn, you are recognized for your testimony. Thank you 
very much for being here today.

    STATEMENT OF RICHARD H. GLENN, ACTING DEPUTY ASSISTANT 
SECRETARY, BUREAU OF INTERNATIONAL NARCOTIC, U.S. DEPARTMENT OF 
                             STATE

    Mr. Glenn. Good morning, Chairman King, Ranking Member 
Rice, Members of the subcommittee. Thank you for the 
opportunity to be here this morning to share with you the 
Department of State's work to combat transnational gangs, 
primarily through information sharing.
    The Bureau of International Narcotics and Law Enforcement 
Affairs, INL as we know it, leads the Department's efforts to 
combat crime overseas. We strengthen the capacity of foreign 
partners to mitigate crime before it reaches our borders.
    Our neighbors, particularly Central America's Northern 
Triangle, suffer extortion, violence, and instability carried 
out by gangs like MS-13. Gang activity in the region undermines 
institutions. It drives migration and it threatens citizen 
security. This has a direct bearing on our own National 
security.
    Like other forms of transnational crime, combatting gangs 
requires well-coordinated and comprehensive solutions. INL 
approaches this threat abroad on three fronts: First through 
regional coordination and information sharing through vetted 
and specialized units; No. 2, community anti-gang efforts; and 
third through institutional reform and capacity building of our 
foreign partners.
    INL support to vetted and specialized units provides U.S. 
and partner National law enforcement with the tools they need 
to investigate complex and high-threat gang cases. Through our 
support, foreign law enforcement gains the skills necessary to 
become reliable, trusted partners of U.S. law enforcement, 
routinely sharing information to disrupt the work of 
transnational gangs.
    We support 56 specialized units throughout Central America, 
including FBI's TAG units and ICE's TCIUs. In 2016 alone the 
Northern Triangle and the vetted units that we support made 
3,116 arrests and denied more than $200 million in revenue to 
criminal organizations.
    Because gangs are transnational I cannot overstate the 
importance of strong regional coordination. We must be nimble 
and INL continually evolves its approach. INL and FBI develop 
the regional criminal gang intelligence platform to enable 
real-time information flow between TAG units.
    Last May, INL, with the Department of Homeland Security, 
created the Border Immigration and Coordination Center, which 
we call GCIF, a Salvadoran multi-agency task force to help 
U.S., State, and local authorities identify, arrest, or deny 
entry to gang members.
    To date, GCIF has identified 240 MS-13 members not 
previously known to U.S. law enforcement, 46 not previously 
known to Salvadoran authorities and 37 Salvadoran human 
smugglers and facilitators.
    Just in the last 2 weeks GCIF identified 16 Salvadoran gang 
members, four of which had active arrest warrants in El 
Salvador for crimes, including aggravated homicide. They will 
be processed for deportation and returned to Salvadoran law 
enforcement authorities.
    INL is working to expand GCIF offices in El Salvador to 
include Guatemala, Honduran, and Mexican authorities.
    We also work closely with our partners in Mexico through 
the Merida Initiative to strengthen our shared border security 
and to combat transnational crime through enhanced information 
sharing. Through INL support, in partnership with DHS, 
biometric information Mexico collects at their borders and 
ports is now being shared with the United States.
    This capability enhances our countries' joint efforts to 
respond to migration trends and to conduct cross-border 
investigations of gang members and special interest aliens.
    We recognize, however, improving operational coordination 
and information sharing is not enough. Citizens need to have 
the trust and confidence in police to report crimes and police 
need that information to successfully crack down on gang 
activity.
    In Central America, INL is strengthening local law 
enforcement's capacity to connect with communities and address 
gang violence by implementing violence prevention programs in 
high-crime areas, many of which have seen homicide rates plunge 
between 40 percent and 73 percent in 2015.
    INL's third line of effort supports building strong 
institutions. Arresting gang members is only effective if 
justice institutions can prosecute, convict, and incarcerate 
criminals. INL and our interagency partners enhance the 
capacity of justice institutions, including attorney generals 
to introduce legal reforms, mitigate gang violence, and combat 
corruption.
    Combatting transnational gangs requires comprehensive and 
well-coordinated efforts. Achieving lasting change is not quick 
or easy, but the comprehensive approach we have put in place is 
showing promising results. And a sustained commitment to our 
partners in the region is critical to protecting our homeland.
    Chairman King, Ranking Member Rice, thank you for the 
opportunity to appear before you today, and I look forward to 
your questions.
    [The prepared statement of Mr. Glenn follows:]
                 Prepared Statement of Richard H. Glenn
                            January 18, 2018
    Chairman King, Ranking Member Rice, distinguished Members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss the work of the Department of State's Bureau of 
International Narcotics and Law Enforcement Affairs (INL) to combat 
transnational gangs, including through information sharing. 
Transnational gangs are key drivers of instability throughout the 
Western Hemisphere, posing significant threats to security and 
prosperity here in the United States and to our partners abroad, 
particularly in Central America. Transnational gangs extort individuals 
and small businesses and perpetuate high levels of violence and crime, 
causing large numbers of Central Americans, particularly in the 
Northern Triangle countries of El Salvador, Guatemala, and Honduras, to 
migrate to the United States.
    Gangs, predominantly Mara Salvatrucha (MS-13) and the 18th Street 
Gang, which originated in Los Angeles in the 1980's, continue to 
forcibly recruit vulnerable Central American immigrants and expand 
their influence in the United States. With a presence in more than 40 
U.S. States, communities across the country are forced to grapple with 
increased levels of homicide, extortion, local drug dealing, 
prostitution, and other violent crimes carried out by gangs. MS-13 is 
particularly prevalent in El Salvador, contributing to its notoriety as 
one of the most violent countries in the world in 2015 and 2016. While 
El Salvador's homicide rate for 2017 decreased by 25 percent from 2016 
levels, gang activity still contributes to sustained levels of 
extortion, violence, and insecurity. U.S. law enforcement reports more 
frequent communication between MS-13 members in El Salvador and the 
United States, further reinforcing the growing transnational nature of 
MS-13. Both MS-13 and Barrio 18 have a significant presence in 
Honduras, though not on the same scale as in El Salvador. In Guatemala, 
gang activity consists mainly of street gangs focused on extortion. 
However, transnational gang members, especially Barrio 18, are 
increasingly extending operations in Guatemala as El Salvador and 
Honduras intensify efforts to combat gangs in their respective 
countries.
    As the reach of transnational gangs span borders and communities, 
successfully dismantling them require comprehensive and well-
coordinated solutions at the local, State, Federal, and international 
levels. INL leads the Department of State's efforts to combat 
transnational crime overseas by strengthening the capacity of foreign 
partners to combat and prevent crime at the source before it reaches 
U.S. borders. Our programs complement those of, and are closely 
coordinated with, the efforts of our U.S. interagency colleagues, 
including the U.S. Department of Justice (DoJ) and the U.S. Department 
of Homeland Security (DHS).
    In Central America, INL leads the Department's implementation of 
regional efforts to combat transnational crime under the Central 
America Regional Security Initiative (CARSI) and in support of the U.S. 
Strategy for Central America, a multi-year interagency initiative to 
secure U.S. borders and protect U.S. citizens by addressing the 
security, governance, and economic drivers of migration and illicit 
trafficking, and to promote private-sector investment in Central 
America. Established in 2008, CARSI brings years of lessons learned and 
best practices to the current fight against transnational gangs, 
including the knowledge that combatting MS-13 and other transnational 
gangs requires a multi-faceted approach that couples law enforcement 
efforts to deny transnational gangs the ability to operate with 
building stronger, more accountable institutions that bring criminals 
to justice. To this end, INL support under CARSI focuses on 
strengthening the capacity of foreign governments' law enforcement and 
criminal justice systems through a three-part approach: Regional 
coordination and information sharing through vetted and specialized 
units, bottom-up community anti-gang efforts, and top-down 
institutional reform and capacity building. Through this approach, we 
prevent gang activity and recruitment in Central American communities, 
ensure institutions are capable of bringing gang members to justice, 
and strengthen the ability of partner-nation law enforcement to disrupt 
and dismantle transnational gangs.
    Our Northern Triangle partners are also working to enhance their 
efforts to disrupt and dismantle transnational crime. In August 2016, 
the Northern Triangle governments signed the ``Regional Plan Against 
Transnational Organized Crime''. The agreement includes measures for 
information sharing on organized crime investigations and increased 
joint patrolling of border zones by police and military personnel to 
curb arms and drug smuggling, as well as the movement of gang members. 
As part of this plan, high-level officials, including the Attorney 
Generals, meet to increase collaboration and coordination between the 
countries.
             regional coordination and information sharing
    Working closely with our interagency colleagues, including DoJ and 
DHS, INL combats transnational gangs through building the capacity of 
vetted units and specialized task forces to investigate cases and to 
serve as reliable, trusted partners of U.S. law enforcement. Due to the 
transnational nature of MS-13 and Barrio 18, our efforts increasingly 
focus on enhancing cross-border intelligence sharing and operations. We 
currently support 56 partner nation vetted units, task forces, and 
specialized tactical units throughout Central America. These units, 
typically comprised of elite members of partner nation law enforcement 
institutions, are capable of investigating complex and high-threat gang 
cases and other key security issues. In Honduras, El Salvador, and 
Guatemala, INL provides training, equipment, technology, and logistical 
support to FBI-vetted and advised Transnational Anti-Gang Units (TAGs), 
which lead international efforts to target criminal gangs. Through the 
TAGs, U.S. and Central American law enforcement partners work together 
to investigate, disrupt, and dismantle transnational gangs, including 
through the collection and dissemination of intelligence to support 
investigations. The results of these units have been remarkable and, 
importantly, have led to arrests in both the United States and Central 
America, and to lives saved. In 2015 the TAG unit in El Salvador 
started monitoring Salvadorans with active links to gang members 
throughout the East Coast of the United States, which contributed to 
the identification of the entire leadership structure for local MS-13 
and 18th Street gangs and the arrest of 98 MS-13 gang members in 
Charlotte, Boston, and Newark, saving four lives in the United States 
and 28 in El Salvador.
    To enhance TAG units' ability to attack criminal gang activity in 
the region, INL supported the development of the Regional Criminal Gang 
Intelligence Platform (SICAT), which was operationalized in October 
2017. INL continues to support SICAT, which enables real-time 
information sharing for TAG units to track gang-related activities, 
migration, human smuggling, and the trafficking of drugs, weapons, and 
illicit goods across the Northern Triangle. The platform facilitates 
secure and immediate exchange of information, directly supporting the 
Northern Triangle Presidents agreement in the 2016 ``Regional Plan 
Against Transnational Organized Crime'' to exchange information on 
transnational gang activity. SICAT is a critical component for 
increased cross-border coordination and operations.
    In the Northern Triangle and Panama, INL supports U.S. Immigration 
and Customs Enforcement (ICE)-vetted Transnational Criminal 
Investigative Units (TCIUs) through the provision of equipment and 
technology, training, and logistical support. TCIUs disrupt and 
dismantle transnational criminal organizations (TCOs) and investigate a 
litany of crimes, including human trafficking, smuggling, and money 
laundering, which often have a nexus with transnational gangs. Our 
support for TCIUs includes DHS Operation CITADEL, a multi-year 
interagency effort to bolster partner nation capabilities to identify, 
disrupt, and dismantle TCOs by targeting the networks used to move 
migrants, illicit funds, and contraband throughout Central America. In 
2017, CITADEL's intelligence and information sharing, mentoring, and 
capacity building through cross-border TCIU operations resulted in 231 
arrests, including nine MS-13 members in Honduras. CITADEL also led 
authorities to identify or disrupt a number of human trafficking and 
financial networks of gangs and TCOs in the region.
    Extortion is the main source of revenue for Salvadoran gangs. Wide-
spread extortion perpetuated by gangs is often cited as a primary 
security concern by citizens of the Northern Triangle and one of the 
drivers of migration from the region. As a result, INL established 
several specialized task forces beginning in 2012 comprised of police 
and prosecutors to address extortion and dismantle transnational gangs' 
extensive financial networks. Through technical assistance and 
mentoring by INL and DOJ Office of Overseas Prosecutorial Development 
Assistance and Training (OPDAT) advisors, investigations by these task 
forces have produced impressive results. In 2017, asset forfeiture and 
financial crimes task forces executed numerous large-scale operations 
with hundreds of arrests and multi-million-dollar asset seizures of 
gang members and associates, eliminating access to their financial 
resources. For example, the Salvadoran Business Crimes Task Force 
(BCTF) successfully dismantled four MS-13 and 18th Street extortion 
networks, maintaining a 96 percent conviction rate. In 2016, these 
units contributed to Operation Jaque, El Salvador's first effort to 
dismantle MS-13 financial structures. The Salvadoran Attorney General's 
Office expanded the BCTF concept to anti-extortion units located in 
each of El Salvador's 19 departments. In September 2017, the units 
executed a second MS-13 financial takedown, Operation Tecana, which 
involved cross-border coordination with Guatemala and DHS, resulting in 
137 arrests, including six police officers, for collaborating with MS-
13 and other criminal organizations and the seizure of properties and 
businesses used to launder money from illicit acts.
    In September 2017, INL and interagency efforts to more effectively 
coordinate the network of Northern Triangle task forces and vetted 
units contributed to the success of Operation Regional Shield. INL-
supported prosecutors and police in Guatemala, Honduras, and El 
Salvador, working with OPDAT and the FBI, conducted a coordinated 
regional operation against gang members in their respective countries. 
The operation led to the arrest of 3,800 gang members in the United 
States and Central America. Law enforcement officials seized six 
firearms and charged 284 gang members in Guatemala; seized 14 
businesses and 11 luxury vehicles and arrested 12 MS-13 money 
launderers in Honduras; and filed 3,477 criminal charges, resulting in 
more than 1,400 arrests and the dismantling of eight MS-13 and Barrio 
18 cliques in El Salvador.
    In May 2017, INL facilitated the creation of the Border Integration 
and Coordination Center (GCIF), a Salvadoran multi-agency task force 
supporting DHS and U.S. State and local law enforcement to identify, 
arrest, or deny entry to gang members. GCIF officials, originally 
deployed to McAllen, Texas, conduct research and report information to 
DHS and relevant law enforcement for further action. The information 
provided through GCIF was not available to U.S. authorities prior to 
the implementation of the program. Since its inception, GCIF 
information has led to the arrest of eight gang members and one human 
smuggler in the United States, as well as the arrest of a gang member 
in Italy who was on Salvadoran authorities' top-wanted criminal list. 
GCIF has identified 240 MS-13 members not previously known to U.S. law 
enforcement, 46 not previously known to Salvadoran authorities, and 37 
Salvadoran human smugglers and facilitators. GCIF queries also 
identified 88 Salvadoran nationals with active arrest warrants in El 
Salvador; information U.S. officials utilized when reviewing 
immigration applications made by these individuals. In December 2017, 
the last Salvadoran officials deployed to McAllen returned to El 
Salvador, joining a permanent staff of 10 police officers, five 
migration officials, and two corrections officers--alongside 
representatives from the U.S. Department of Homeland Security--at a 
dedicated Salvadoran headquarters where they will continue to review 
these records.
    Due to the initial successes and strengthened coordination between 
United States and Salvadoran authorities, INL is working to expand GCIF 
to include Guatemalan and Honduran officials. In July 2017, the INL-
funded United Nations Office on Drugs and Crime human trafficking 
project facilitated the first Interparliamentary Forum among 
legislators, Attorneys General, and Security Ministers of the Northern 
Triangle countries. The country delegates concluded the meeting with 
signed commitments, including support for GCIF, the first tangible 
regional commitment to the GCIF by the Northern Triangle governments. 
At the same time, we are working to expand GCIF beyond its current 
location and are promoting it as a resource for U.S. States and local 
jurisdictions with significant MS-13 presence. In October 2017, INL and 
DHS reached out to the Suffolk County, Long Island Police Department 
(SCPD), which submitted to GCIF a list of 454 individuals suspected of 
gang affiliation. GCIF identified and provided potential residential 
locations of known gang members and individuals wanted in El Salvador.
    Through INL's International Law Enforcement Academies (ILEAs), we 
provide specialized training to criminal justice sector officials and 
facilitate collaboration between partner nations' and U.S. Federal, 
State, and local law enforcement to address common problems. From 2015 
through 2017, 211 law enforcement officials from 12 countries, 
including more than 100 from the Northern Triangle, attended anti-gang 
training courses at ILEAs San Salvador and Roswell. The courses were 
taught either by the FBI or Salvadoran National Police to provide 
participants with tools to investigate gang-related crimes.
                    information sharing with mexico
    Through our strong security partnership with Mexico, INL's efforts 
under the Merida Initiative includes enhancing information sharing with 
Mexico to disrupt transnational crime and TCOs. In 2015, the United 
States agreed to help Mexico develop a nation-wide, interagency 
biometrics system capable of interfacing with U.S. biometrics systems. 
INL, in coordination with DHS, commenced a pilot project in 2017 to 
enable Mexico's National Migration Institute to routinely collect and 
exchange biometric information on migrants with the United States. As 
of 2017, all biometric information collected in migration centers and 
ports of entry along Mexico's southern border with Guatemala and Belize 
is shared with United States law enforcement. This capability enhances 
our countries' joint efforts to identify, track, and dismantle TCOs and 
other violent criminal groups; to identify Known or Suspected 
Terrorists before they reach U.S. borders; to track migration patterns; 
to anticipate, plan for, and respond to migration surges; to analyze 
human trafficking networks; and to support cross-border investigations 
of gang members and other criminals. INL partners with ICE and Customs 
and Border Protection (CBP) to train and mentor Mexican migration 
officials. We will explore expanding this biometric exchange with 
Mexico to prisons, airports, and other Mexican security agencies.
    The depth of our cooperation with Mexico to strengthen border 
security, control migration, and dismantle transnational criminal 
networks is unprecedented. Since 2014, Mexico has significantly 
increased its presence along its southern border with Guatemala and 
Belize. In 2016, Mexico's Migration Agency detained 188,595 migrants 
headed to the United States. Ninety percent of those migrants were 
Central Americans, and 17,889 were unaccompanied children. Mexico's 
cooperation to control migration strengthens our own border security 
and saves the United States billions of dollars in potential 
deportation costs.
    Mexico continues to increase engagement with the United States and 
Central American partners to combat shared threats from organized 
crime, and we welcome this very positive step in regional 
collaboration.
                      bottom-up anti-gang efforts
    In addition to our bilateral and regional coordination efforts to 
enhance information sharing, INL also implements proven successful 
community-level anti-gang interventions in Central America, given a 
significant amount of gang activity in the region is localized. These 
interventions strengthen the capacity of police, make communities more 
resilient to gang infiltration, and establish trust and relationships 
between communities and the police. Through Model Police Precincts 
(MPP) and Place-Based Strategy (PBS) sites, we strengthen local law 
enforcement's ability to prevent and respond to gang violence by 
identifying key high-crime areas and communities at risk, and 
partnering with implementers to develop strategically balanced and 
integrated criminal justice-sector projects. As a result of these 
strong partnerships, MPP and PBS sites have seen reductions in homicide 
rates ranging from 40 to 73 percent since 2015. We also tackle gang 
recruitment, a pervasive issue for youth in the Northern Triangle 
countries, through the Gang Resistance Education and Training (GREAT) 
and Police Athletic League (PAL) programs. These police-led programs 
provide anti-gang and life skills training, sports, and other 
activities to at-risk children. As a result, children develop tools to 
resist recruitment tactics and citizen trust in law enforcement is 
strengthened. To date, more than 300,000 students have graduated from 
INL-sponsored GREAT programs in Central America, and 1,624 police 
officers achieved certification to teach the GREAT curriculum.
                     top-down institutional efforts
    Arresting gang members is only effective if justice institutions 
are capable of prosecuting, convicting, and incarcerating these 
criminals. Through training, technical assistance, and mentoring, INL 
and our interagency partners enhance the capacity of the Northern 
Triangle justice institutions and ensure the security of prosecutors 
and judges working on high-profile cases. These efforts are essential 
as corruption and impunity remain significant challenges in the region. 
We work closely with the Attorney Generals of the Northern Triangle 
countries to introduce legal reforms, mitigate gang violence, and 
combat corruption. Many key successes, including Operation Regional 
Shield executed in September 2017, are coordinated by Northern Triangle 
Attorney Generals, with U.S. support. Furthermore, by helping 
Salvadoran and Guatemalan prisons improve security and infrastructure, 
we work to ensure that gang leaders are unable to direct criminal 
activities while incarcerated.
                               conclusion
    Dismantling transnational gangs and ending the violence and crime 
they carry out requires sustained and well-coordinated efforts between 
law enforcement while also strengthening the institutions that 
administer justice and investing in local communities to increase trust 
and confidence in the police and provide citizens with the tools 
necessary to resist gang influence. These are smart and necessary 
investments, whether it is combating transnational gangs here at home 
or abroad. Security in Central America is vital to the security of the 
United States. INL's work to strengthen foreign partner capacity in the 
region provides critical linkages between U.S. and foreign law 
enforcement to make possible greater information sharing. Like other 
forms of transnational crime, however, dismantling gangs does not lend 
itself to simple, short-term solutions. This is a long-term endeavor, 
but the comprehensive approach we have put in place to tackle the 
considerable challenges before us is demonstrating measurable results. 
INL will continue to support programming that enhances information 
sharing and regional coordination to improve citizen security in 
Central America and combat the influence of transnational gangs and 
criminal organizations in the United States.

    Mr. King. Thank you, Mr. Glenn.
    I will direct my first question initially to the FBI but 
then to be answered by anyone who wants to respond. What has 
changed or will change in your ability to target MS-13 since 
the October 2017 attorney general direction to make the TCO a 
priority? OK, that will be the first part of the question.
    Mr. Richardson. Thank you, sir. Certainly we at the FBI 
have redirected resources appropriately. We are actively 
engaged with our TAG teams or our TAG task forces down in the 
Northern Triangle with regard to MS-13 and the 18th Street 
gang.
    Ultimately our goal is to get ahead of the threat through 
intelligence sharing and be more proactive as opposed to 
reactive. We rely heavily upon the information that is coming 
out of the Northern Triangle.
    We have SSAs that are assigned to these vetted teams that 
are trusted advisors providing subject-matter expertise 
regarding investigative techniques that we utilize. Then the 
goal is to gain actionable intelligence and share that with our 
domestic partners, with our trusted Safe Streets partners 
across the United States in order to get ahead of the threat.
    Mr. King. Thank you. Let me, before I go to Mr. Villanueva, 
I would be remiss if I didn't also commend the FBI for the 
terrific work they are doing in the--and again, this is HSI, 
FBI and the local police are doing a phenomenal job, and so I 
want to--if you can, again, pass on to them my thanks for the 
terrific job they are doing.
    Mr. Richardson. Yes, sir. I will. Thank you.
    Mr. King. Now to Mr. Villanueva and Mr. Glenn, as a follow-
on to that question, did this attorney general's direction add 
any capabilities to HSI or to the State Department?
    Mr. Villanueva. Sir, what I will say is that the direction 
will actually help us to focus on the problem and to double 
down our efforts into targeting MS-13 and other violent gangs 
by bringing all ICE tools to bear, whether it is the criminal 
enforcement side they have through HSI or the administrative 
through ERO.
    But also to bring our traditional financial investigations 
to target their finances, their assets, and to go with a 
holistic approach against this violent gang, also by working 
with CBP, with the interagency and working with INL to bring 
capacity-building efforts to the region very much like the FBI 
is doing to continue to raise that level of awareness and the 
expertise to tackle those violent gangs.
    So a really important direction. It really helps the 
interagency and the law enforcement community to hone down into 
a terrific problem that is affecting our National security.
    Mr. King. Mr. Glenn.
    Mr. Glenn. I would just echo what Mr. Villanueva mentioned, 
as well as the success of our programs relies largely on the 
political will of the countries that we work in. Without that 
political will we can do a tremendous amount of work and have 
very few results.
    When we get high-level engagement, for example, the 
attorney general's engagement with the countries that we work 
in, it sends a very clear signal as to the priorities of the 
United States and helps them internally develop the political 
will that is needed to make these programs successful.
    Mr. King. If I could follow up with you, Mr. Glenn, how is 
the McAllen coordination facilitated by INL? How is that 
enhancing the coordination between, say, the police in El 
Salvador and in U.S. communities such as Nassau and Suffolk 
Counties where Miss Rice and I represent?
    Mr. Glenn. Sure. So it has been a tremendous development 
and a very effective tool, but what it does is it places or has 
placed in El Salvador a law enforcement official who has access 
to their criminal information databases and puts them in 
physical connection with law enforcement authorities in the 
United States and provides us between the two countries an 
avenue with which to share the information.
    That is why we have been able to get the results that we 
have gotten. As people have come across the border and been 
apprehended, we can run fingerprints against databases in El 
Salvador.
    So people who have misrepresented who they are, your 
fingerprint doesn't lie, and that is how we have been able to 
actually identify people wanted for murder back in El Salvador 
and been able to deport them and see that they experience 
justice.
    Mr. King. Thank you, Mr. Glenn.
    Now I will recognize the Ranking Member. But let me just 
say before I formally recognize her, is that Miss Rice has been 
a great partner in all this. We had a joint hearing back in 
Central Islip on MS-13 back in, I guess, May or June, and I 
want to thank her for her cooperation and bipartisan spirit in 
this.
    With that, I recognize the Ranking Member.
    Miss Rice. Thank you, Chairman King.
    Mr. Glenn, what are the largest Russian gangs that you have 
come across, and what are the kind of criminal activities that 
they are involved in? How are you trying to combat Russian 
cyber crime?
    Mr. Glenn. So our focus in the Western Hemisphere has been 
on Latin American gangs, MS-13, 18th Street. Russian gangs in 
the Western Hemisphere has not been a focus.
    What I can do is take that question back to those who focus 
on Russian law enforcement matters.
    Miss Rice. But if you are talking about transnational 
criminal organizations, I mean, the Russians, given what they 
did during the elections last year have to be front and center 
on--I mean, just out of curiosity is there any focus on that at 
all?
    Mr. Glenn. Right.
    Miss Rice. I am not saying take away from MS-13, but if you 
are looking at transnational criminal organizations I would 
think that the Russians are right up there.
    Mr. Glenn. The focus in the Western Hemisphere has been on 
MS-13 and 18th Street.
    Miss Rice. Are you aware of any effort to address Russian--
--
    Mr. Glenn. Not in the Western Hemisphere.
    Miss Rice [continuing]. Criminal organizations? No.
    Mr. Glenn. Not in the Western Hemisphere.
    Miss Rice. Well----
    Mr. Glenn. Not INL programming.
    Miss Rice. OK.
    Mr. Villanueva, there are many undocumented immigrants who 
I am sure you are aware are victims of transnational criminal 
organizations, including MS-13, certainly where Chairman King 
and I are from. They witness crimes committed by gang members, 
but as you know, many of them don't want to come forward 
because they are afraid that they are then going to be taken 
into custody, deported depending on what their status is.
    So my question is: You know, it seems that the 
administration's rhetoric and policies toward undocumented 
immigrants have really caused that fear to escalate. So how are 
you as law enforcement agencies, needing information from 
people who are maybe here illegally but are being victimized 
and have information to help you address the criminal 
activities of MS-13 and other gangs, how do you deal with that 
issue?
    Mr. Villanueva. Ma'am, thank you very much for the 
question. Your point is extremely valid and it is a concern 
that we law enforcement deal with every day. As a matter of 
fact, there are protections for witnesses when they come 
forward to law enforcement, whether they are in the country 
legally or not.
    Under the Immigration and Nationality Act, the INA, we can 
provide those individuals with continued presence. That 
authority is delegated to the Secretary of Homeland Security, 
which she then delegates that to ICE, which is one of the 
programs that I have overseen of. It is what we call the Parole 
Branch.
    We can work with that community and we can offer 
protections, continued presence, significant public benefit 
paroles and there are some other tools out there to protect 
those individuals from being deported, to protect those 
individuals from violence from those gangs.
    So there are protections for them when they come forward to 
law enforcement. When I am saying law enforcement, not only 
ICE, HSI. When they come forward to the FBI we will work with 
our FBI partners to grant those protections to any witness that 
come forward regardless of that person's immigration status.
    Miss Rice. Has that made it easier for you to get 
information? I mean how do you get the word out that it is OK 
for people to come forward?
    Mr. Villanueva. So we do have actually outreach campaigns 
through the victim assistance program and certainly efforts 
like this and where we have the ability to talk to the American 
people about all the programs are paramount to get the word 
out, so really appreciate your question on this topic.
    Miss Rice. Great, thank you.
    I think that is it.
    Mr. King. Mr. Perry, let me thank you for--articulately and 
more intelligently than I would ever do.
    Mr. Perry. My privilege, Mr. Chairman.
    Mr. King. The gentleman is recognized.
    Mr. Perry. Thank you.
    Mr. Richardson, a couple questions here kind-of in 
different directions and maybe a little off the topic of 
collaboration, but somewhat in it. Not only transnational 
crimes but if a terrorist activity or event occurs in the 
United States that would be something you would collaborate 
with other agencies on as the FBI. Is that correct? I just want 
to make sure I am not out of bounds here.
    Mr. Richardson. Yes. Yes.
    Mr. Perry. That is correct, right? So if I could, what 
compels your organization or local law enforcement for that 
matter to work with the National Counterterrorism Center in 
some type of a criminal or alleged terrorist event? What 
compels that? What is the precedent? What has to happen?
    Mr. Richardson. So counterterrorism is not my expertise.
    Mr. Perry. I understand.
    Mr. Richardson. However, I can tell you that NCTC is a 
great partner of ours. We work with them each and every day on 
the counterterrorism front and share information on a regular 
basis, both on a Classified level and an Unclassified level.
    Mr. Perry. If you were working on a case, so to speak 
though, and you determined that you need to bring the NCTC in, 
what makes that determination? Do they offer? Do you see 
things? How does that happen?
    I am trying to figure out what that nexus is, and I have 
got a specific example in mind and I won't keep you in 
suspense.
    The mass hooting in Las Vegas, ISIS in June and August, per 
my recollection, warned the United States or warned us, warned 
the public that they were going to attack Las Vegas. Then I 
think up to four times post the incident claimed 
responsibility.
    Yet at this point I don't think there is any NCTC 
involvement, but there is FBI involvement. So I am trying to 
figure out what is happening there? Do you know?
    Mr. Richardson. So I couldn't speak to the Las Vegas 
shooting incident in this particular environment because of 
classification issues.
    Mr. Perry. Well, what is the normal protocol though? What 
would invoke? What would precipitate involving the NCTC?
    Mr. Richardson. Specifically I would have to get back to 
you. I am happy to do that.
    Mr. Perry. There is no normal protocol that somebody has to 
request it? You hear some traffic. You see some traffic. None 
of that? There is not a specific protocol that you know of at 
this time?
    Mr. Richardson. So my information is dated but I will tell 
you based upon my personal experience working counterterrorism 
matters the dialog with NCTC happens every day in group 
meetings and then individually with folks that work from each 
agency. So I can tell you that that dialog is on-going. It is 
seamless.
    Mr. Perry. OK.
    Mr. Richardson. But specifically if you are asking me for 
protocols I will have to get back to you on that.
    Mr. Perry. Yes, if you could, please.
    Mr. Richardson. Sure.
    Mr. Perry. I would like to be able to understand that a 
little bit better. Moving on with the remaining time I want to 
explore an area where this, again, is maybe out of the 
particular realm of this conversation, but Congress is meant to 
provide oversight in our role, and we provide a check on the 
Executive branch to ensure the balance of power between the two 
branches.
    I have oftentimes, and you might not have and probably have 
nothing to do with this, but been frustrated by asking for 
briefings on particular issues from the FBI only to be told 
there is no briefing available. We are not going to brief you.
    I understand the sensitivity of the case and that we don't 
want to jeopardize any on-going investigation. I will tell you 
one in particular that I have requested and recently requested 
again, and I am trying to work through whatever the protocols 
are.
    Imran Awan is a case that I am interested in. We don't seem 
to have much information. I am just trying to verify and 
validate some things. This is an incident where literally the 
Congress is involved.
    As I understand it the FBI's involved, yet we can get no 
information--zero. We can't get a briefing. We don't see any 
reports from the FBI so we don't know where the investigation 
stands.
    Is it solely bank fraud? Is there something more to do with 
the links to Pakistan and the shadow, if you want to call it 
that, or whatever you want to call the car sales exercise and 
money laundering and so on and so forth? These seem to be 
reasonable questions for Members of Congress.
    Certainly I have got a bona-fide Top Secret clearance and 
plus whatever you characterize the one here in Congress. What 
must Members of Congress do to get a reasonable briefing on 
events that are appropriate? Is there something I am missing?
    Mr. Richardson. No, sir. We make every effort to provide 
those briefings at the request of Congress and others. I would 
encourage you to continue to make that request. We will send it 
up through our channels.
    I will tell you that we are hesitant to comment both 
publicly or privately on on-going investigations. As a matter 
of fact, we are prohibited to do that. However, in certain 
instances we are able to provide those briefings when the 
request comes in.
    So I am very familiar with----
    Mr. Perry. If you would please make a note that I have made 
the request but maybe it will have a little more weight if you 
send it forward. But we will continue to, and I look forward to 
a continuing conversation on this and other issues.
    Thank you, Mr. Chairman. I yield.
    Mr. King. Thank you, Mr. Perry.
    The gentleman from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. King. Former prosecutor himself.
    Mr. Keating. That is right. That is correct. Thank you, Mr. 
Chairman, and thank all of you for your service to the country. 
It is really appreciated, and it is great to see the 
interagency cooperation on display here this morning.
    I had a question, I guess Mr. Glenn first. You were 
describing some of the conditions in El Salvador and you were 
talking about how many homicides, gang activity, the violence 
that is there. It is a pretty violent place, isn't it?
    Mr. Glenn. Yes.
    Mr. Keating. Young people that are there, is there coercive 
activities with these gangs and other groups to coerce them 
into criminal activities?
    Mr. Glenn. Yes.
    Mr. Keating. What would you say, and is it important to 
have cooperation, as you mentioned, with the local people in 
the country, not just the leaders themselves? That is part of 
what we are trying to instill. That is part of the three things 
you mentioned, correct?
    Mr. Glenn. Correct.
    Mr. Keating. So what are we to make of sending 200,000 
people back to El Salvador in huge numbers? What is that going 
to--what message does that send to the people we are trying to 
create this cooperation with in El Salvador when they see 
family members who have fled because of danger, fear, being 
sent back?
    Is that something that instills or will enhance cooperation 
locally in our activities? What kind of message could that 
send?
    Mr. Glenn. Sure. Well, I think it is important at least in 
terms of why we do what we do in Central America, specifically 
in El Salvador. The reason that we offer the assistance that we 
do is because of the conditions in these countries.
    Mr. Keating. Right.
    Mr. Glenn. So we have----
    Mr. Keating. So I mean is it fair to say that sending these 
people that fled from those type of coercive activities and 
dangers we could be sending them right back into those 
dangerous situations----
    Mr. Glenn. Well, from an INL perspective, our 
responsibility is to----
    Mr. Keating. No, no, I am sorry. I am just asking you with 
your knowledge not as an official answer, but----
    Mr. Glenn. Yes.
    Mr. Keating [continuing]. You know, with the knowledge 
which obviously you have for that part of the world and what is 
happening, is that kind-of a possibility?
    Mr. Glenn. Yes, but there are tough conditions and that is 
why we are there trying to help resolve, to help them get the 
security infrastructure that they need.
    Mr. Keating. So nothing has changed suddenly from the point 
where those people fled from that coercive activity and it is 
still a problem. I am wouldn't say there's not improvement, but 
it's still a problem.
    Mr. Glenn. Oh, yes. I think we have seen some real 
improvement, especially in some of the most dangerous 
neighborhoods, the neighborhood of Chamelecon in Honduras, for 
example, outside of San Pedro Sula. You know, in partnership 
with USAID and DOD, INL's place-based strategy has made 
significant improvements in a neighborhood like that that was a 
primary----
    Mr. Keating. So but it is still dangerous?
    Mr. Glenn. Dangerous and getting better.
    Mr. Keating. The country is--yes, great.
    Mr. Glenn. Yes.
    Mr. Keating. All right. Thank you. I know those are 
difficult questions to put you on the line for, but it is 
important to say as part of your earlier testimony indicated.
    You know, there are about 100 people, almost 100 people a 
day in the United States dying, and when you look at the gang 
activity and the other activities.
    But when we are looking at transnational criminal 
organizations, the one that is killing the most people in our 
country, as I said, almost 100 a day, are those activities that 
surround opioids and Fentanyl coming into our country, being 
counterfeited to look like Percocet or other commercial drugs, 
coming in with great potency.
    It has spiked the deaths in my area and most of the country 
enormously. A lot of that is coming from China. Can you comment 
on what we are trying to do where right under the nose of the 
Chinese government the manufacturing of these that are 
occurring and being shipped through?
    Because clearly that is costing the most American lives 
every day. Anything we are doing to focus on that specifically? 
Any of you, sorry; FBI, too.
    Mr. Glenn. I can just mention briefly some of the things 
that INL has been doing. One of the important things on 
Fentanyl and the analogs of Fentanyl, so there are multiple 
types of synthetic opioids that are being produced in China and 
brought into the United States, is to get those substances on 
the list of prohibited substances.
    That has been successful. We will be going into the 
meetings in April in Vienna to get additional substances put on 
those lists.
    Engagement with China has been effective, and I think we 
have begun to see China taking a proactive----
    Mr. Keating. Quickly because my time is running out, it is 
important to note that my discussions in private meetings with 
the Customs and Border Patrol, Homeland people, the greatest 
trend now is getting the shipments through UPS, FedEx, the 
United States Postal Service.
    These things are coming and you also have that in 
coordination with use of the internet and maybe some of the 
dark parts of the internet, too.
    I mean, is that creates a great challenge, a lot of those 
things. How are you doing on that? That is a pretty tough 
challenge to do, but are we getting more cooperation from the 
postal service or from these other countries at the point that 
they are being sent from?
    FBI, you know, Mr. Richardson.
    Mr. Richardson. Yes, sir, thank you for the question and 
certainly realize that opioid addiction and trafficking of 
opioids in this country is a great problem. It will probably be 
worse tomorrow than it is today unfortunately, but we do have 
resources that are targeting the distributors of those illegal 
opioids to the communities.
    One thing that we are doing that is a little bit unique 
maybe from some of the other agencies is we have stood up a 
unit that looks at the dark net specifically in order to try to 
identify those individuals, those organizations that are on the 
dark net, the net beyond the net, hiding with autonomy that are 
sending the drugs through whether it is FedEx or whether it is 
the postal service or how the narcotics are coming in.
    So we have had some success with that initiative thus far. 
We are going to add additional resources to that going forward, 
and we have been relatively successful, so----
    Mr. Keating. Well, thank you. My time is up. I would just 
comment. I would rather give you and your collective activities 
on that arena more resources, more money, because it is killing 
more people than having an extended wall would result in saving 
people's lives.
    I yield back.
    Mr. King. The gentleman yields.
    We are going to closed session soon, but I have two 
questions I would like to ask if you can answer them on the 
record. If not, we can wait 'til downstairs. I will ask them 
together and then you can respond.
    My staff recently visited El Salvador and they heard from 
agencies on the ground that the MS-13 leaders are actually 
frustrated that the MS-13 members in this country are not 
violent enough. They are going to be sending more violent 
members to the United States.
    Now, can you confirm that? If so can you say what, you 
know, the implications of that are? Would you be able to adapt 
to that?
    Mr. Richardson. So I will take a crack at it first. I can 
tell you from the FBI perspective our intelligence streams tell 
us that what you have mentioned is accurate. Because of 
enforcement actions across the country, some of the leadership 
here at the mid-level within the United States of America they 
have been arrested. They are incarcerated.
    That is frustrating to the leadership of the MS-13 gang in 
El Salvador, and they are very much interested in sending 
younger, more violent offenders, gang members up through their 
channels into this country in order to be enforcers for the 
gang. So that is absolutely correct.
    Mr. King. Mr. Villanueva.
    Mr. Villanueva. Yes, sir. We can actually discuss some of 
our on-going efforts later on today downstairs, but yes. We are 
looking at that problem. We are looking at the information we 
are getting and, once again, I mean, we are doubling down our 
efforts against MS-13.
    As a matter of fact, this year Operation Citadel, which we 
have been doing for a few years, it is just going to have an 
MS-13 component working with our international partners. We do 
have some other efforts that are going to be paramount to stop 
the flow of those individuals from coming in to the United 
States that we can discuss later today.
    Mr. King. Mr. Glenn, do you have any----
    Mr. Glenn. Again, I would just reiterate that our efforts 
are going to be in support of the units that they work with in 
the Northern Triangle region to help mitigate any kind of 
change in behaviors by the gangs.
    Mr. King. Yes. I would just say it is hard to imagine them 
being much more violent, so truly a horrifying thought. I know 
within 1 mile of my house I am sure close to where Miss Rice 
lives they are actually digging up bodies of young kids who 
have been butchered by MS-13.
    So one other question on that. Are there any signs of MS-13 
member partnering with traditional drug cartels?
    Mr. Glenn. I can--internationally?
    Mr. King. Internationally, yes.
    Mr. Glenn. Yes. You know, they control neighborhoods just 
like here in the United States. MS-13 and 18th Street gang 
members distribute drugs in their countries so they are an 
essential part of the distribution network of drugs in their 
countries for local consumption there.
    There are indications, although not in large ways, but 
there are indications that they do cooperate with the drug 
trafficking organizations that are sending drugs into the 
United States.
    Mr. Richardson. So I would say our intelligence tells us or 
informs us that most of the relationships are opportunistic in 
nature. The MS-13 would be subordinate to the larger drug 
cartels that we are familiar with and we have worked for years.
    MS-13 is used as enforcers for particular shipments and/or 
distribution rings in some of the communities here within the 
United States. So that is the intelligence that we have 
currently regarding the partnership, but MS-13 is subordinate 
to the drug cartels.
    Mr. Villanueva. Sir, along the same lines our information 
is similar to the FBI. There is connectivity. It is just 
defining what connectivity looks like. So the same connectivity 
to be at par. Maybe not but maybe as a subordinate, the 
enforcers, distributors. There is certainly a connection to 
that effect.
    Mr. King. OK. I have no more questions in open session.
    Miss Rice, do you?
    Miss Rice. No.
    Mr. King. Scott? No? OK. Well, with that, do we actually 
adjourn or go on recess? How do we get downstairs? What do we 
do? So what do we do next, recess?
    OK. Recess and we will move to a secure environment. Thank 
you. Thank you for testifying and we will see you downstairs.
    [Whereupon, at 11:13 a.m., the subcommittee proceeded in 
closed session and subsequently adjourned at 12:28 p.m.]



                            A P P E N D I X

                              ----------                              

    Questions From Ranking Member Bennie G. Thompson for Stephen E. 
                               Richardson
    Question 1. What are the largest Russian transnational gangs and 
what are their main activities and crimes?
    Answer. Response was not received at the time of publication.
    Question 2. How is your agency trying to combat Russian cyber 
crimes, including those perpetrated by Russian and Eurasian 
transnational gangs, and/or Russia-linked actors working with these 
gangs?
    Answer. Response was not received at the time of publication.
    Question 3. How does your agency prioritize which transnational 
gangs, and which of their illicit activities, to combat? What common 
metrics are used by your agency to communicate across the interagency 
to measure the threat posed by various gangs? What metrics are most 
commonly used in information sharing with foreign partners?
    Answer. Response was not received at the time of publication.
    Question 4. What percentage or proportion of the illicit activities 
of transnational gangs and TCOs involve drug trafficking, human 
trafficking, money laundering, and cyber crime? Separately, how much of 
transnational gangs' and TCOs' illicit activities involve human 
trafficking, money laundering, and cyber crime? Which transnational 
gangs and TCOs committed the most serious crimes in fiscal year 2016 
and fiscal year 2017, for instance, in terms of numbers of homicides, 
amount and value of drugs trafficked, amount of human trafficking 
conducted, amount of weapons trafficked, amount of money laundered, and 
dollar value of fraud committed? Please list the top ten transnational 
gangs and TCOs involved by each type of illicit activity.
    Answer. Response was not received at the time of publication.
    Question 5. Threat reports state that there are more than 300 
active Outlaw Motorcycle Gangs (OMGs) who engage in violent crime, 
weapons trafficking, and drug trafficking in the United States, 
including along and across both the Northern and Southern Borders, as 
well as in locations throughout the United States. Please provide 
statistics on the numbers of crimes, cases, and investigations related 
to OMGs.
    Answer. Response was not received at the time of publication.
Questions From Ranking Member Bennie G. Thompson for Raymond Villanueva
    Question 1. What are the largest Russian transnational gangs and 
what are their main activities and crimes?
    Answer. Response was not received at the time of publication.
    Question 2. How is your department trying to combat Russian cyber 
crimes, including those perpetrated by Russian and Eurasian 
transnational gangs, and/or Russia-linked actors working with these 
gangs?
    Answer. Response was not received at the time of publication.
    Question 3. How does your department prioritize which transnational 
gangs, and which of their illicit activities, to combat? What common 
metrics are used by your department to communicate across the 
interagency to measure the threat posed by various gangs? What metrics 
are most commonly used in information sharing with foreign partners?
    Answer. Response was not received at the time of publication.
    Question 4. What percentage or proportion of the illicit activities 
of transnational gangs and TCOs involve drug trafficking, human 
trafficking, money laundering, and cyber crime? Separately, how much of 
transnational gangs' and TCOs' illicit activities involve human 
trafficking, money laundering, and cyber crime? Which transnational 
gangs and TCOs committed the most serious crimes in fiscal year 2016 
and fiscal year 2017, for instance, in terms of numbers of homicides, 
amount and value of drugs trafficked, amount of human trafficking 
conducted, amount of weapons trafficked, amount of money laundered, and 
dollar value of fraud committed? Please list the top ten transnational 
gangs and TCOs involved by each type of illicit activity.
    Answer. Response was not received at the time of publication.
    Question 5. Threat reports state that there are more than 300 
active Outlaw Motorcycle Gangs (OMGs) who engage in violent crime, 
weapons trafficking, and drug trafficking in the United States, 
including along and across both the Northern and Southern Borders, as 
well as in locations throughout the United States. Please provide 
statistics on the number and type of indictments, arrests, and 
investigations related to OMGs. Please also provide statistics on the 
numbers of crimes, cases, and investigations related to OMGs, including 
as relates to information sharing with Canadian and Mexican officials 
on the illicit activities of OMGs across both our Northern and Southern 
Borders.
    Answer. Response was not received at the time of publication.
    Question 6. Your testimony described 32,000 criminal arrests, of 
which more than 4,800 were gang members. Were there particular TCOs of 
concern among the other arrests, and if so, which groups constituted 
the greatest number of arrests? Of the 4,800 gang members, how many 
were from MS-13, and how many were from other groups?
    Answer. Response was not received at the time of publication.
    Question 7. Your testimony mentioned that ICE seized more than 
900,000 pounds of narcotics. Which five forms of narcotics were most 
prominent (by dollar value of narcotics seized)? What percentage of the 
seizures occurred along the Southern Border versus along the Northern 
Border?
    Answer. Response was not received at the time of publication.
    Question 8. What percentage of the human trafficking and child 
exploitation activity, per your testimony, that ICE identified occurred 
within the United States, and what percentage occurred along our 
Northern and Southern Borders, respectively? Which transnational gangs 
and TCOs were most heavily involved in human trafficking? Please list 
the top ten transnational gangs and TCOs involved.
    Answer. Response was not received at the time of publication.
    Question 9. You stated in your testimony that a successful joint 
task force model is the Border Enforcement Security Task Force (BEST), 
and that in fiscal year 2017, BEST teams initiated more than 4,000 
investigations and made nearly 5,000 criminal arrests. Which 
transnational gangs and TCOs accounted for the largest number of 
arrests, and what proportion of the activity you mentioned occurred 
along our Northern and Southern Borders?
    Answer. Response was not received at the time of publication.
    Question 10. Your testimony noted that Operation Community Shield 
resulted in the arrests of nearly 60,000 gang members and associates 
since 2005. In your testimony, you identified there were 7,800 gang 
members arrested who were affiliated with MS-13. Which other 
transnational gangs and TCOs accounted for the most arrests? Please 
list the top ten transnational gangs and TCOs by number of arrests.
    Answer. Response was not received at the time of publication.
    Question 11. Your testimony stated that without information sharing 
with Federal, State, local, and foreign law enforcement partners, ICE 
would not be nearly as successful at battling MS-13 and other gangs. 
Other than working with Guatemala, Honduras, and El Salvador, which 
countries have you been working most closely with, and what 
transnational gangs have you been targeting? Please provide a list of 
the top 20 countries with whom you are working globally, and the nature 
of the information sharing, to include which transnational gangs or 
TCOs are a particular focus.
    Answer. Response was not received at the time of publication.
    Question 12. You praised the role of Operation CITADEL in 
disrupting and dismantling TCOs in fiscal year 2017. Of the 54 
indictments and nine convictions as a result of this program, which 
transnational gangs and TCOs were the main culprits whose members were 
indicted and convicted?
    Answer. Response was not received at the time of publication.
   Questions From Ranking Member Bennie G. Thompson for Richard Glenn
    Question 1. What are the largest Russian transnational gangs whose 
operations are affecting the United States globally and what are their 
main activities and crimes?
    Answer. Response was not received at the time of publication.
    Question 2. How is your department trying to combat Russian cyber 
crimes, including those perpetrated by Russian and Eurasian 
transnational gangs, and/or Russia-linked actors working with those 
transnational gangs?
    Answer. Response was not received at the time of publication.
    Question 3. How does your department prioritize which transnational 
gangs, and which of their illicit activities, to combat? What common 
metrics are used by your department to communicate across the 
interagency to measure the threat posed by various gangs? What metrics 
are most commonly used in information sharing with foreign partners?
    Answer. Response was not received at the time of publication.
    Question 4. Of your information-sharing programs globally, what 
percentage are focused on transnational gangs' and TCOs' involvement in 
drug trafficking, human trafficking, money laundering, and cyber crime? 
Which transnational gangs and TCOs committed the most serious crimes in 
fiscal year 2016 and fiscal year 2017, for instance, in terms of 
numbers of homicides, amount and value of drugs trafficked, amount of 
human trafficking conducted, amount of weapons trafficked, amount of 
money laundered, and dollar value of fraud committed? Please list the 
top ten transnational gangs and TCOs active in the United States and 
along both our Northern and Southern Borders. Please note and explain 
if there are countries (for instance, China and Russia) from which we 
have faced particular difficulty obtaining actionable information as 
part of our efforts to counter transnational gangs and TCOs.
    Answer. Response was not received at the time of publication.
    Question 5. How many FTEs in your department are working on 
combating transnational gangs and TCOs, and how does your department 
prioritize and track its caseload in terms of the most serious threats? 
Does your department have the resources it needs to devote to this 
threat? If not, what resources are needed, including in terms of 
budget, personnel, and technological resources?
    Answer. Response was not received at the time of publication.
    Question 6. The National Gang Report stated that gangs continue to 
expand their partnerships with other criminal organizations in order to 
widen their networks. Please describe the degree of overlap that exists 
between transnational gangs and transnational organized crime. Please 
include Russian, Eurasian, Asian, Middle Eastern, and African organized 
crime activities along both our Northern and Southern Borders, as well 
as entities such as Hizbollah that may be active in partnership with 
transnational gangs.
    Answer. Response was not received at the time of publication.
    Question 7. In your testimony, you described the importance of the 
Central America Regional Security Initiative (CARSI). Has State 
Department funding for this initiative declined, remained constant, or 
increased? What were the amounts of funding requested for CARSI in 
fiscal year 2015, 2016, and 2017?
    Answer. Response was not received at the time of publication.
    Question 8. You stated that our strong security partnership with 
Mexico, including efforts under the Merida Initiative, have included 
enhancing information sharing to disrupt transnational crime and TCOs. 
Has State Department funding for this initiative declined, remained 
constant, or increased? What were the amounts of funding requested for 
the Merida Initiative in fiscal year 2015, 2016, and 2017?
    Answer. Response was not received at the time of publication.
    Question 9. Your testimony mentioned the success of asset 
forfeiture and financial task forces in 2017. Which gangs and 
transnational criminal organizations (TCOs) were you able to disrupt 
with this focus on assets and finances? Please be sure to include 
assets of transnational gangs and TCOs disrupted globally, to include 
not only groups primarily active along the Southern Border, but also 
TCOs, Outlaw Motorcycle Gangs (OMGs) and Russian, Eurasian, Asian, 
Middle Eastern, and African criminal networks active elsewhere in the 
United States and across or along one or both of our Northern and 
Southern Borders.
    Answer. Response was not received at the time of publication.

                                 <all>
</pre></body></html>
